    IG’s 

Semiannual 

  Report

to Congress



 September 2008
                                                        CONTENTS

From the Inspector General...............................................................................................................................1


Major Challenges for the Department............................................................................................................3

	           Overcome	the	Setbacks	Experienced	in	Reengineering	Decennial	Processes,	and		
	           			Conduct	a	Successful	2010	Census.....................................................................................................3

	           Better	Position	the	Department	to	Address	Information	Security	Risks.........................................5

	           Effectively	Manage	the	Development	and	Acquisition	of 	NOAA’s		
	           			Two	Environmental	Satellites............................................................................................................. 6

	           Establish	a	Safety	Culture	at	NIST........................................................................................................ 6

	           Ensure	NTIA	Effectively	Carries	Out	Its	Responsibilities	Under	the	
	           			Digital	Television	Transition	and	Public	Safety	Act........................................................................ 7
						Other Issues Requiring Significant Management Attention......................................................................8


     Work	in	Progress..............................................................................................................................................11


Agency Overviews
	           Economics	and	Statistics	Administration............................................................................................13

	           National	Oceanic	and	Atmospheric	Administration.........................................................................21

            United States Patent and Trademark Office........................................................................................31
	
	           Department-Wide	Management...........................................................................................................35


Office of Inspector General
            Office of Investigations..........................................................................................................................41
	
            Other OIG Activities..............................................................................................................................43
	
            Tables and Statistics.................................................................................................................................47
	
            Reporting Requirements.........................................................................................................................54
	
Photo Courtesy Commerce Photographic Services

Commerce	Herbert	C.	Hoover	Building
                          FROM THE 

                     INSPECTOR GENERAL


We	are	pleased	to	present	the	Department	of 	Com-                     test	of 	its	address	canvassing	operation.	This	opera-
merce Office of Inspector General’s Semiannual Report                 tion	 is	 essential	 to,	 among	 other	 things,	 successfully	
to Congress for	 the	 6	 months	 ending	 September	 30,	              delivering	 census	 questionnaires	 to	 U.S.	 households,	
2008.	Much	of 	our	work	during	this	reporting	period	                 and	is	estimated	to	cost	$500	million.	The	test	revealed	
focused	on	two	priority	areas	for	the	Department:	the	                serious	 problems,	 and	 we	 recommended	 actions	 for	
2010	decennial	census	and	information	security.	                      mitigating	them	in	the	short	time	that	remains	before	
                                                                      the	 actual	 2010	 operation	 begins.	 Our	 full	 report	 is	
2010 Decennial Census                                                 available	at	www.oig.doc.gov and will be summarized
                                                                      in	our	next	Semiannual Report to Congress.
The Census Bureau experienced significant setbacks
this	 past	 year,	 which	 led	 to	 the	 decision	 to	 abandon	
                                                                      We	also	issued	a	capping	report	highlighting	the	prob-
plans	for	using	handheld	computers	for	a	major	2010	
                                                                      lems we’ve identified with 2010 operations in reviews
decennial field operation. Secretary Gutierrez asked
                                                                      conducted	since	the	beginning	of 	this	decennial	cycle	
the Office of Inspector General to (1) analyze the
                                                                      (page 13). These early reports pointed to the potential
causes	 of 	 problems	 with	 the	 Census	 Bureau’s	 Field	
                                                                      for	the	kinds	of 	problems	the	bureau	is	now	confront-
Data Collection Automation contract, (2) review plans
                                                                      ing.	
and	budgets	to	determine	2010	census	high-risk	areas,	
and (3) examine decennial decision documents and
expenditures.	 We	 are	 nearing	 completion	 of 	 reviews	            Information Security
in all three areas and will promptly report our findings              We	 evaluated	 10	 information	 technology	 systems	
to	the	Secretary	and	Congress.	                                       throughout	 the	 Department	 to	 meet	 the	 annual	 re-
                                                                      quirements	of 	the	Federal	Information	Security	Man-
We	recently	issued	two	reports	on	high-risk	decennial	                agement Act (FISMA). Information security has been
operations. The first was on the bureau’s cost estimates              a	 material	 weakness	 at	 Commerce	 since	 2001.	 Last	
for fingerprinting temporary census workers—a new                     year,	we	worked	with	the	Department	to	implement	a	
undertaking	for	this	decennial	that	is	projected	to	cost	             2-year plan for improving the certification and accred-
$148 million (see page 15). This estimate is hundreds                 itation (C&A) process to eliminate the material weak-
of 	 millions	 of 	 dollars	 lower	 than	 earlier	 projections	       ness.	The	FISMA	reviews	we	completed	this	year	in-
the bureau had developed, and reflects savings identi-                dicate	that	progress	is	being	made:	we	concluded	that,	
fied through our work and a concurrent analysis by                    generally, Commerce’s C&A process had improved. In
Department and Census officials.                                      order	to	eliminate	the	material	weakness,	the	Depart-
                                                                      ment	needs	to	ensure	the	progress	continues	until	sys-
The	second	report,	issued	shortly	after	the	close	of 	the	            tem C&As consistently meet required standards.
semiannual	period,	is	on	the	bureau’s	dress	rehearsal	



                                                                  
Other Areas of Focus
Among	our	other	work	during	this	reporting	period,	
we	completed	a	review	of 	Commerce	earmarks	at	the	
request	 of 	 the	 Senate	 Subcommittee	 on	 Federal	 Fi-
nancial	Management,	Government	Information,	and	
International	Security.	We	assessed	NOAA’s	National	
Data	 Buoy	 Center	 operations	 and	 NOAA’s	 partner-
ship	 arrangements	 with	 state	 agencies	 for	 enforcing	
fisheries regulations. And our ongoing international
telemarketing	 fraud	 investigation	 resulted	 in	 another	
four convictions and more than $94 million in fines
and restitution. We also identified the top manage-
ment challenges for the Department for fiscal year
2009. We briefly summarize those challenges here and
will	issue	a	full	report.

We	 look	 forward	 to	 working	 with	 the	 Department	
to	address	these	challenges.	And	we	thank	Secretary	
Gutierrez, senior officials throughout the Depart-
ment,	and	members	of 	Congress	for	their	support	of 	
our	 work	 during	 this	 reporting	 period	 and	 for	 their	
responsiveness	to	our	recommendations	for	improv-
ing	Commerce	operations.	




                                                           
                 MAJOR CHALLENGES 

                FOR THE DEPARTMENT

The	Reports	Consolidation	Act	of 	2000	requires	in-
spectors	general	to	identify	the	top	management	chal-
                                                                        Top Management Challenges
lenges	 facing	 their	 departments.	 For	 FY	 2009	 Com-
merce OIG has identified five top challenges that                  • Overcome	the	Setbacks	Experienced	in	
require immediate and significant action from the                    Reengineering	Decennial	Processes,	and	
Department,	and	four	longer	term	issues	that	require	                Conduct	a	Successful	2010	Census
its	 sustained	 attention.	 These	 challenges	 provide	 the	
focus	for	much	of 	our	work,	as	we	assess	the	Depart-              • Better	Position	the	Department	to		
ment’s	progress	in	addressing	them.                                  Address	Information	Security	Risks

                                                                   • Effectively	Manage	the	Development	and	
Challenge 1
                                                                     Acquisition	of 	NOAA’s	Two	Environ-
Overcome the Setbacks Experienced in                                 mental	Satellites
Reengineering Decennial Processes, and
Conduct a Successful 2010 Census                                   • Establish	a	Safety	Culture	at	NIST

                                                                   • Ensure	NTIA	Effectively	Carries	Out	Its	
The	 ability	 of 	 the	 U.S.	 Census	 Bureau	 to	 success-           Responsibilities	Under	the	Digital	Televi-
fully	conduct	its	constitutionally	mandated	decennial	               sion	Transition	and	Public	Safety	Act
count	of 	U.S.	residents	in	2010	is	at	serious	risk.	Af-
ter	spending	8	years	developing	a	completely	new	ap-
proach to census-taking—one that was to automate
                                                         The	Department	and	the	Census	Bureau	have	taken	
major field operations—the bureau scrapped plans
                                                         significant actions during the past year to address
for	using	handheld	computer	technology	for	the	larg-
                                                         problems,	 including	 extensive	 changes	 to	 decennial	
est	and	most	expensive	of 	these	operations,	known	as	
                                                         management,	improvements	in	program	management	
nonresponse follow-up, because of significant perfor-
                                                         practices,	and	closer	oversight	of 	the	decennial	effort	
mance problems and loss of confidence in the Field
                                                         by	the	Department.	However,	despite	these	changes,	
Data Collection Automation (FDCA) contractor. It
                                                         significant risks remain for the 2010 decennial. Wheth-
will	now	conduct	this	operation	using	paper	and	pen-
                                                         er	the	bureau	can	in	fact	retool	in	time	to	conduct	a	
cil,	as	it	has	done	in	previous	censuses.	
                                                         reliable	census,	even	at	this	increased	price	tag,	repre-
                                                         sents in our view the most significant challenge facing
The	inability	of 	the	bureau	and	its	contractor	to	work	
                                                         the	Department.
together	to	produce	a	handheld	computer	and	relat-
ed systems for field data collection as originally en-
                                                         Census 2010 was to be the first high-tech count in
visioned, combined with major flaws in the bureau’s
                                                         the	 nation’s	 history,	 with	 decennial	 employees	 us-
cost-estimating	methods	and	other	issues,	have	added	
                                                         ing	 handheld	 computers	 to	 verify	 addresses	 through	
an	estimated	$2.2	billion	to	$3	billion	to	the	original	
                                                         global-positioning	software,	collect	data	from	house-
$11.5	billion	life-cycle	cost	estimate.	


                                                               
Major Challenges for the Department                                                                       September 008—Semiannual Report to Congress



         holds	 that	 did	 not	 mail	 back	 census	 questionnaires	                           operation—which concluded in June 2007—revealed
         (i.e., nonresponse follow-up), and manage a variety                                  serious	problems,	and	plans	for	testing	and	enhanc-
         of 	 information	 and	 tasks.	 The	 handheld	 computers	                             ing	the	handhelds	since	dress	rehearsal	have	been	se-
         were	the	centerpiece	of 	the	strategy	and	other	decen-                               verely	compressed.	Address	canvassing	will	undergo	
         nial	operations	were	built	around	or	impacted	by	the	                                its final operational test over an 8-day period, rather
         decision	to	use	them.	The	switch	to	paper	processes	                                 than	the	3	months	originally	allotted	in	the	plan	for	
         will require additional field staff and support person-                              the	retooled	census.	We	question	whether	Census	will	
         nel—which means more time to hire and train, and                                     have	the	time	to	resolve	issues	arising	from	the	8-day	
         more	 dollars	 to	 do	 so.	 And	 it	 means	 Census	 must	                            test,	scheduled	for	December,	before	the	start	of 	the	
         modify	its	other	plans	and	operations	to	account	for	                                2010	 operation.	 Training	 of 	 address	 canvassers	 for	
         the	change.	                                                                         the	live	operation	commences	in	February	2009,	leav-
                                                                                              ing the bureau only a short period of time to fix any
         For	 example,	 address	 canvassing	 will	 remain	 auto-                              problems identified in this final test.
         mated, but will undergo its final operational test over
         an	8-day	period,	rather	than	the	3	months	originally	                                Help desk operations—key to ensuring the handhelds
         allotted.	 This	 operation	 is	 essential	 to,	 among	 other	                        function properly during address canvassing—are
         things,	successfully	delivering	questionnaires	and	giv-                              just	now	in	the	process	of 	being	redesigned.	Census	
         ing	temporary	staff 	accurate	addresses	and	maps	for	                                is	also	taking	over	the	regional	census	center	commu-
         nonresponse	follow-up.	Dress	rehearsal	testing	of 	the	                              nications infrastructure—which under the contractor
                                                                                              has	experienced	numerous	problems	that	must	be	re-
                                                                                              solved	to	ensure	a	successful	2010	count.	

                                                                                              Overcoming	automation-related	issues	is	but	one	as-
                                                                                              pect	of 	the	challenge	facing	Census.	The	bureau	must	
                                                                                              also	address	the	readiness	of 	numerous	other	opera-
                                                                                              tions	that	have	suffered	from	inattention	throughout	
                                                                                              the	 decade	 because	 of 	 the	 greater	 than	 anticipated	
                                                                                              focus	on	automation	problems.	Census	had	to	cancel	
                                                                                              tests	of 	procedures	for	enumerating	some	tradition-
                                                                                              ally difficult groups and settings, such as the homeless
                                                                                              and	 military	 bases,	 while	 completed	 tests	 of 	 others,	
                                                                                              such	 as	 American	 Indian	 reservations,	 have	 shown	
                                                                                              little	 effect	 on	 mitigating	 long-standing	 obstacles	 to	
                                                                                              producing	accurate	counts.	Census	cites	the	FY	2008	
                                                                                              continuing	 resolution	 as	 the	 reason	 for	 cancellation	
                                                                                              of 	many	of 	its	planned	tests.

                                                                                              In addition, the bureau must have a fingerprinting
                                                                                              program	in	place	prior	to	hiring	the	estimated	1.3	mil-
                                                                                              lion temporary workers needed for field operations.
                                                                                              Because the decision to fingerprint was made only
                                                                                              recently, Census faces significant risks in implement-
                                                                       US Census Bureau       ing this $148 million operation.
        Address canvassers used the handheld computers to update maps and ad-
        dresses in census testing, but the systems had significant problems. The time         The overarching reason for the significant problems
        remaining for resolving the problems is extremely compressed.                         Census	 has	 encountered	 to	 date	 is	 the	 failure	 of 	
                                                                                              Census	 Bureau	 management	 in	 place	 at	 the	 time	 to	
                                                                                              anticipate	 the	 complex	 IT	 requirements	 involved	 in	
                                                                                              automating	the	census.	Contributing	factors	the	De-


                                                                                          
September 008—Semiannual Report to Congress                                                      Major Challenges for the Department



       partment	and	Census	must	address	include	the	insular	        To	be	effective	in	this	environment,	the	Department’s	
       nature	 of 	 the	 bureau	 and	 lack	 of 	 management	 with	  IT security program must be proactive and fluid,
       proven	 expertise	 in	 running	 complex	 programs	 and	      staffed	by	IT	security	professionals	who	have	the	ap-
       system	acquisitions	or	applying	contemporary	private	        propriate	skills	and	experience	to	implement	required	
       sector	management	methods.	                                  security	controls,	assess	their	effectiveness,	and	antici-
                                                                    pate	and	respond	to	emerging	threats.	They	also	need	
       With the first major decennial operation (address can- appropriate	security	clearances	to	effectively	deal	with	
       vassing) beginning in early 2009, the new Secretary potential	cyber	attacks.	We	have	found	IT	security	staff 	
       will	have	little	time	left	for	planning	for	the	2010	de- lacks	adequate	understanding	of 	the	Department’s	IT	
       cennial,	although	he	or	she	will	have	responsibility	for	 security	policy,	NIST	standards	and	guidance,	and	se-
       its	overall	implementation.	However,	the	new	Secre- curity	technology,	and	therefore	cannot	appropriately	
       tary	will	have	the	opportunity	to	initiate	planning	for	 apply	them.	The	Department	cites	lack	of 	resources	
       the	 2020	 census,	 using	 the	 lessons	 learned	 from	 the	 as	a	major	impediment	to	improving	IT	security.	
       2010	census.	
                                                                    We	have	been	working	with	the	Department	to	elimi-
                                                                    nate	 the	 material	 weakness	 by	 the	 end	 of 	 2009	 un-
       Challenge 2                                                  der	a	jointly	developed	plan	that	incorporates	realistic	
                                                                    milestones	and	measurable	steps	for	building	consis-
       Better Position the Department to Ad-                        tent and repeatable C&A practices. A key element of
       dress Information Security Risks                             the	strategy	is	continuous	monitoring,	which	requires	
                                                                    agencies	 to	 regularly	 assess	 and	 adjust	 their	 security	
       As	in	many	federal	agencies,	putting	proper	informa- controls	to	maintain	or	improve	protective	measures.	
       tion	security	controls	in	place	has	been	an	intractable	 Our	 FISMA	 reviews	 this	 year	 noted	 improvements,	
       problem	at	the	Department	of 	Commerce	and	a	long- but	still	fewer	than	half 	the	systems	we	evaluated	met	
       standing	item	on	OIG’s	watch	list.	Despite	additional	 FISMA	 standards.	 However,	 several	 showed	 subse-
       expenditures	to	mitigate	the	problem,	the	Department	 quent	improvements	because	of 	rigorous	continuous	
       has	reported	information	security	as	a	material	weak- monitoring	activities.	
       ness	every	year	since	FY	2001.
                                                                    The	 Department	 has	 made	 progress	 toward	 imple-
       The	 reason	 for	 the	 material	 weakness	 is	 ineffective	 menting	the	Cyber	Security	Assessment	and	Manage-
       certification and accreditation (C&A): the Federal In- ment tool—a software application developed by the
       formation Security Management Act (FISMA) and Department of Justice that allows users to take a 360-
       OMB	policy	require	agencies	to	certify	that	their	sys- degree approach to C&A. They can input system in-
       tems	and	data	are	protected	with	adequate,	function- formation as they begin the C&A process, and, among
       ing security controls before authorizing (accrediting) other	things,	generate	and	implement	a	security	plan	
       a	 system	 to	 operate.	 But	 year	 after	 year	 our	 FISMA	 that complies with FISMA requirements, analyze se-
       reviews have found ineffective C&A processes that curity	 requirements,	 and	 track	 resolution	 of 	 vulner-
       do	not	adequately	identify	and	assess	needed	controls	 abilities	 and	 the	 results	 of 	 security	 control	 monitor-
       and	ultimately	fail	to	assure	that	systems	and	data	are	 ing. The systems we reviewed this year were certified
       protected.	                                                  and accredited without the benefit of the tool. But
                                                                    once	 fully	 integrated,	 the	 tool	 should	 bring	 greater	
       Securing	systems	from	cyber	threats	is	clearly	the	most	 consistency to the C&A process across all Commerce	
       difficult piece of the challenge, because these threats bureaus.	
       represent	 a	 moving	 target:	 they	 increase	 in	 number	
       and	 sophistication	 almost	 daily.	 And	 as	 agencies	 in-
       corporate	wireless	and	other	technologies	to	support	
       their operations and workplace flexibilities, they invite
       new	risks	that	must	be	anticipated	and	mitigated.	



                                                                     
Major Challenges for the Department                                                 September 008—Semiannual Report to Congress



        Challenge 3                                                     research	through	2028.	An	inadequate	acquisition	and	
                                                                        management	 process	 contributed	 to	 underestimated	
        Effectively Manage the Development and
                                                                        costs	 for	 GOES-R	 and	 planned	 satellite	 capabilities	
        Acquisition of NOAA’s Two Environ-
                                                                        that	 were	 too	 ambitious.	 As	 a	 result,	 the	 projected	
        mental Satellites                                               cost	 of 	 GOES-R	 has	 increased	 from	 $6.2	 billion	 to	
                                                                        $7.7	billion,	a	major	sensor	has	been	removed,	and	the	
        NOAA is modernizing its environmental monitoring                number	 of 	 satellites	 to	 be	 purchased	 has	 decreased	
        capabilities,	 spending	 billions	 of 	 dollars	 on	 two	 sat-  from	four	to	two.	
        ellite	 systems	 that	 provide	 critical	 data:	 the	 National	
        Polar-orbiting	 Operational	 Environmental	 Satellite	 Reining	 in	 additional	 costs	 and	 delays	 in	 both	 pro-
        System (NPOESS) and Geostationary Operational grams requires very specific action and vigilant over-
        Environmental Satellite-R Series (GOES-R).                      sight.	 For	 NPOESS,	 the	 three	 agencies	 developing	
                                                                        the system—NOAA, NASA, and the Department of
        Space	 acquisitions	 like	 NPOESS	 and	 GOES-R	 are	 Defense—must (1) control and resolve the continuing
        highly	 technical	 and	 complex	 and	 have	 a	 history	 of 	 problems with VIIRS, and (2) improve triagency deci-
        cost	overruns,	schedule	delays,	and	performance	fail- sion	making.	Because	NPOESS	is	the	only	source	of 	
        ures.	The	costs	and	schedules	of 	both	of 	these	sys- critical	weather	and	environmental	data,	it	is	especially	
        tems have significantly increased since the projects important that VIIRS problems be resolved and con-
        commenced.	They	therefore	require	careful	oversight	 gressional confidence in and support of the program
        to minimize any further disruption and to prevent any be	maintained.
        gaps in satellite coverage—a situation that could have
        serious	 consequences	 for	 the	 safety	 and	 security	 of 	 For GOES-R, NOAA needs to (1) work closely with
        the	nation.	                                                    the	Department	to	ensure	they	follow	best	practices	in	
                                                                        overseeing	the	acquisition	while	awaiting	development	
                                  The	 $12.5	 billion	 NPOESS	 of 	formal	Commerce	oversight	polices	and	procedures	
                                  project	 will	 provide	 continu- to guide such projects, and (2) work with Congress to
                                  ous	weather	and	environmental	 update	the	baseline	life-cycle	cost	estimate	used	in	its	
                                  data	 for	 longer	 term	 weather	 annual	reporting	on	the	satellite	system.
                                  forecasting	 and	 climate	 moni-
                                  toring	 through	 the	 coming	 2	
                                  decades.1	The	initial	plan	called	 Challenge 4
        for	the	purchase	of 	six	satellites	at	a	cost	of 	$6.5	bil-
        lion, with a first launch in 2008. But problems with a Establish a Safety Culture at NIST
        key sensor—the Visible/Infrared Imager Radiometer
        Suite (VIIRS)—were a major contributor to the cur- A June 2008 plutonium spill at the National Institute
        rent	$12.5	billion	estimate,	while	the	number	of 	satel- of 	 Standards	 and	 Technology’s	 Boulder,	 Colorado,	
        lites was reduced to four and the first launch pushed laboratory	raised	serious	concerns	about	NIST’s	abil-
        back	to	2013.	Recent	analysis	indicates	that	the	$12.5	 ity	to	perform	state-of-the-art	research	with	radioac-
        billion	estimate	could	substantially	increase	in	the	near	 tive	 and	 other	 dangerous	 materials	 while	 protecting	
        future.	                                                        the	safety	of 	workers	and	the	community	at	large.

        The	$7.7	billion	GOES-R	                                        The	plutonium	spill	was	one	of 	several	incidents	re-
        system	will	offer	an	unin-                                      ported	 at	 NIST	 labs	 in	 the	 past	 few	 years	 that	 have	
        terrupted flow of high-                                         revealed management flaws and a lax safety culture at
        quality	 data	 for	 short-                                      the	agency.	But	it	was	by	far	the	most	serious	in	terms	
        range	 weather	 forecasting	                                    of 	the	potential	for	widespread	harm.
        and	 warning,	 and	 climate	
                                                                        The	plutonium	spill	prompted	a	series	of 	reviews	by	
                                                                        independent	 health	 and	 safety	 experts,	 the	 Depart-
        
         The cost of the NPOESS program is shared equally by NOAA
        and the Department of Defense.



                                                                    
September 008—Semiannual Report to Congress                                                                     Major Challenges for the Department



       ment of Energy, and NIST’s Ionizing Radiation Safety Challenge 5
       Committee, all of which shared a common finding—a
                                                                 Ensure NTIA Effectively Carries Out Its
       commitment	 to	 safety	 at	 NIST	 Boulder	 is	 seriously	
                                                                 Responsibilities Under the Digital Tele-
       lacking.
                                                                                     vision Transition and Public Safety Act
       Two studies conducted by NIST have identified a
       backlog	 of 	 more	 than	 $500	 million	 in	 facility	 main-                  The	 Digital	 Television	 Transition	 and	 Public	 Safety	
       tenance and repair requirements. A 2004 study found                           Act	 of 	 2005	 assigned	 the	 National	 Telecommunica-
       $458 million in deficiencies at NIST’s Gaithersburg                           tions	 and	 Information	 Administration	 responsibility	
       campus and a 2008 study identified $48 million in de-                         for	implementing	a	$2.5	billion	initiative	for	the	con-
       ficiencies at Boulder. Many of the items relate directly                      version	to	digital	television	and	improvements	to	pub-
       to	 safety.	 NIST	 noted	 that	 it	 should	 be	 investing	 at	                lic safety communications. The act authorizes NTIA
       least	$50	million	to	$70	million	annually	to	bring	its	fa-                    to	 use	 $1.5	 billion	 to	 support	 the	 nation’s	 February	
       cilities	to	a	“fair”	condition	and	stay	ahead	of 	further	                    2009	switch	to	all-digital	broadcasting	by	offering	cou-
       deterioration.	 According	 to	 the	 Department,	 NIST	                        pons	 toward	 the	 purchase	 price	 of 	 converter	 boxes	
       received	$32	million	for	facilities	in	FY	2008.	                              that	will	enable	analog	television	sets	to	receive	digital	
                                                                                     broadcasts.	
                                                                                     A	primary	purpose	of 	the	switch	is	to	free	up	radio	
                                                                                     frequencies	for	advanced	wireless	emergency	commu-
                                                                                     nications	at	state	and	local	levels.	NTIA	will	use	ap-
                                                                                     proximately	$1	billion	to	fund	grants	for	public	safety	
                                                                                     interoperable communications (PSIC) projects in all
                                                                                     50	states,	the	District	of 	Columbia,	and	the	U.S.	ter-
                                                                                     ritories—a total of 56 entities.

                                                                                     The authorizing legislation requires NTIA to coor-
                                                                                     dinate	 with	 the	 Department	 of 	 Homeland	 Security	
                                                                                     in	 administering	 the	 PSIC	 program	 and	 set	 a	 statu-
                                                                                     tory	deadline	of 	September	30,	2010,	to	expend	grant	
                                                                                     funds.	Subsequent	legislation	set	a	statutory	deadline	
                                                                                     of 	September	30,	2007,	for	the	award	of 	grants.
                                                                         NIST

                                                                                     Converter Box Coupon Program Is
       According to a 2008 study, the NIST Boulder campus, pictured above, had
                                                                                     Progressing
       $48 million in facility deficiencies, many of them related to safety.
                                                                 NTIA	has	made	substantial	progress	in	preparing	tele-
                                                                 vision	 viewers	 for	 the	 switch	 to	 digital	 broadcasting	
       It	is	clear	from	the	circumstances	surrounding	the	plu- by dispensing up to two $40 coupons per household
       tonium	incident	and	subsequent	revelations	that,	at	a	 to	 offset	 the	 purchase	 price	 of 	 the	 converter	 boxes,	
       minimum,	NIST	must	make	safety	a	primary	concern	 which enable analog TVs to receive digital signals.
       at all organizational levels and strictly comply with all NTIA	contracted	with	IBM	to	provide	certain	servic-
       federal	requirements	and	industry	standards.	It	must	 es	to	implement	the	coupon	program,	and	had	issued	
       establish	 and	 enforce	 stringent	 policies	 and	 proce- more	 than	 26	 million	 coupons	 as	 of 	 September	 30,	
       dures for handling hazardous materials and strict lines 2008,	and	redeemed	10	million	of 	them.
       of 	accountability	for	implementing	them.
                                                                 Maintaining	 strict	 accountability	 for	 funds	 in	 a	 pro-
                                                                 gram of this type and size requires careful oversight
                                                                 and	 strong	 internal	 controls	 to,	 among	 other	 things,	
                                                                 guard	against	waste,	fraud,	and	abuse	among	retailers,	
                                                                 and	to	adapt	to	evolving	program	requirements.	


                                                                                 
Major Challenges for the Department                                                                   September 008—Semiannual Report to Congress



                                                                                          largest	grants.	Only	one	stated	that	it	plans	to	acquire	
                                                                                          most	of 	its	interoperable	communications	equipment	
                                                                                          within	the	next	6	months.	Eight	told	us	they	are	in	the	
                                                                                          early	stages	of 	planning	their	acquisitions.	The	other	
                                                                                          13	will	start	acquiring	most	of 	their	interoperable	com-
                                                                                          munications	equipment	in	late	FY	2009	or	possibly	at	
                                                                                          the	beginning	of 	FY	2010.	Given	all	that	must	follow	
                                                                                          the purchase of equipment—installation, operational
                                                                                          testing, and training at a minimum—grantees who are
                                                                                          still	in	the	acquisition	stage	as	late	as	FY	2010	face	the	
                                                                                          very	real	possibility	of 	arriving	at	the	program’s	Sep-
                                                                                          tember	30	deadline	with	partially	completed	projects	
                                                                                          but without funding to finish them out.

                                                                                          NTIA	should	expeditiously	identify	grantees	who	are	
                                                                                          at	high	risk	of 	not	meeting	the	statutory	deadline	for	
                                                                                          completing	their	projects,	give	them	the	technical	as-
                                                                                          sistance	they	need	to	accelerate	the	process,	carefully	
                                                                               OIG        monitor	their	progress,	and	keep	Congress	informed	
        This communications tower was erected by an Arkansas PSIC grantee as              of 	the	PSIC	program’s	status	toward	achieving	its	ob-
        part of its interoperable communications project. Obtaining FCC licenses to
                                                                                          jectives.	If 	any	entities	seem	still	unlikely	to	meet	the	
        build these towers and meeting various state and local requirements can add
        months or years to a project’s time frame.                                        deadline,	NTIA	should	work	with	Congress	to	extend	
                                                                                          it.
        Although	 administering	 the	 coupon	 program	 is	
        NTIA’s primary role, the act authorizes the agency to
        use	 up	 to	 $5	 million	 for	 outreach	 and	 education	 to	                      Other Issues Requiring Significant
        ensure	 that	 consumers	 know	 about	 both	 the	 digital	                         Management Attention
        TV transition and the coupons. Although the Federal
        Communications	 Commission	 has	 primary	 respon-                                 Several	 other	 Commerce	 operations	 and	 activities	
        sibility	for	consumer	education	and	outreach,	NTIA	                               present	 longer	 standing	 challenges,	 and	 their	 resolu-
        should	continue	to	work	with	stakeholders,	including	                             tion	is	essential	to	the	Department’s	sound	manage-
        representatives of groups at risk of finding themselves                           ment and mission success. The first—acquisition
        without	television	reception	on	February	17,	2009,	to	                            management—has ramifications Department-wide.
        ensure	a	smooth	transition	to	digital	television.	                                The remaining three—though agency-specific—have
                                                                                          a	 direct	 bearing	 on	 Commerce’s	 missions	 relating	 to	
        PSIC Grantees May Not Be Able to Finish                                           U.S.	 economic	 strength	 and	 competitiveness,	 or	 na-
        Projects Within the Mandated Time Frame                                           tional	security.
        The	PSIC	program	is	a	one-time	grant	opportunity	to	
        target specific funds and resources toward improving                              Weaknesses in the Department’s
        the	interoperability	of 	local	and	state	voice	and	data	                          Acquisition Oversight and Acquisition
        communications.	But	grantees	are	moving	slowly,	and	                              Workforce
        whether	they	can	complete	their	projects	by	the	statu-                            Acquisition	 and	 contract	 management	 has	 been	 a	
        tory	deadline	of 	September	30,	2010,	is	questionable.                            persistent	 watch	 list	 item	 for	 inspectors	 general	 and	
                                                                                          GAO,	as	related	government	spending	has	ballooned	
        As	of 	September	2008,	grantees	had	spent	less	than	                              in	 recent	 years.	 Spending	 on	 contracts	 government-
        1.5	 percent	 of 	 the	 available	 $1	 billion,	 which	 leaves	                   wide,	 for	 example,	 has	 more	 than	 doubled	 since	
        them	only	2	years	to	complete	their	projects	or	lose	                             2000—from $208 billion to $430 billion in FY 2007.
        funding.	In	September	and	October	2008	we	contact-                                Meanwhile,	the	federal	acquisition	workforce	has	re-
        ed	 22	 grantees,	 including	 19	 of 	 the	 20	 receiving	 the	                   mained	 fairly	 constant,	 and	 the	 projects	 it	 supports	


                                                                                      8
September 008—Semiannual Report to Congress                                                                 Major Challenges for the Department



       have	greatly	increased	in	complexity	and	risk.	                         USPTO’s Long and Growing Patent Pro-
       Over	the	next	2	years,	the	Department	of 	Commerce	                     cessing Times, and Its Financing Vulner-
       will	spend	an	average	of 	approximately	$3	billion	an-                  abilities
       nually	 on	 goods	 and	 services.	 The	 2010	 decennial	
       census	 and	 two	 critical	 NOAA	 satellite	 systems	 will	
                                                              The efficiency with which the U.S. Patent and Trade-
       account	for	roughly	a	third	of 	these	annual	expendi-
                                                              mark Office processes patent applications has a direct
       tures.	 All	 three	 of 	 these	 programs	 have	 already	 suf-
                                                              bearing	on	how	well	it	achieves	its	mission	of 	promot-
       fered significant cost overruns and schedule delays
                                                              ing	U.S.	competitiveness.	Meeting	the	demand	for	new	
       because	of 	weaknesses	in	acquisition	management.	
                                                              patents	in	a	timely	manner	has	been	a	long-standing	
                                                              challenge	 for	 USPTO.	 Increases	 in	 both	 the	 volume	
       The	Department	does	not	have	coherent	policies	to	
                                                              and	complexity	of 	patent	applications	have	lengthened	
       guide	systems	acquisition	or	effective	oversight	mech-
                                                              application	processing	times	and	backlogs	dramatical-
       anisms,	and	these	failings	were	major	contributors	to	
                                                              ly. In 2004, USPTO had a patent backlog of nearly a
       the problems we identified with NOAA’s GOES-R
                                                              half-million	 applications	 and	 processing	 times	 of 	 27	
       satellite program and the Census Bureau’s field data
                                                              months.	By	2007,	processing	times	averaged	nearly	32	
       collection	automation	contract.	Commerce	also	lacks	
                                                              months,	with	wait	times	for	 communications-related	
       a sufficient amount of skilled contracting and project
                                                              patents as long as 43 months.
       management	expertise.	
                                                                               As	of 	September	30,	2008,	USPTO	reported	a	back-
       The	 Department	 is	 working	 to	 address	 these	 prob-
                                                                               log	 of 	 750,596	 applications	 and	 estimated	 that	 the	
       lems,	 but	 the	 process	 is	 slow	 and	 in	 its	 early	 stages.	
                                                                               backlog	 will	 exceed	 860,000	 by	 September	 2011.		
       Commerce	is	strengthening	acquisition	and	contract-
                                                                               USPTO	needs	to	reverse	the	upward	trend	and	con-
       ing	by	updating	its	antiquated	policies	and	procedures	
                                                                               tinue	 to	 implement	 measures	 discussed	 in	 its	 2007-
       to	promote	more	effective	planning,	implementation,	
                                                                               2012 strategic plan that have a significant impact on
       and	 oversight.	 It	 is	 also	 taking	 steps	 to	 make	 better	
                                                                               reducing	the	backlog,	such	as	shortening	application	
       use of its oversight bodies—the Acquisition Review
                                                                               review	times,	improving	examiner	error	rates,	and	hir-
       Board	 and	 the	 Commerce	 Information	 Technology	
                                                                               ing,	training,	and	retaining	skilled	examiners.	
       Review Board—and to ensure acquisition plans are
       appropriate,	and	programs	and	contracts	are	reviewed	
                                                                               USPTO’s unique financing structure also presents
       at	key	decision	points	in	their	life	cycle.	
                                                                               challenges.	 There	 is	 a	 complex	 relationship	 between	
                                                                               the number of patent applications filed, the size of
       But	success	in	these	efforts	will	not	be	enough	to	im-
                                                                               the	application	backlog,	the	number	of 	patents	issued,	
       prove	the	Department’s	overall	acquisition	operations	
                                                                               and	the	fees	USPTO	collects	in	connection	with	the	
       without	 commensurate	 success	 in	 hiring	 and	 retain-
                                                                               patent	process.	The	agency	uses	fees	collected	today	to	
       ing a qualified acquisition workforce. The Depart-
                                                                               pay for patent applications filed and examined in prior
       ment	needs	a	comprehensive	human	 capital	 strategy	
                                                                               years.	With	the	backlog	growing,	processing	times	in-
       that (1) taps into government-wide recruiting initia-
                                                                               creasing, and the number of patents issued flattening,
       tives, (2) explicitly defines what acquisition skills and
                                                                               this method of financing could become increasingly
       competencies	it	needs	and	how	they	will	evolve	over	
                                                                               risky	 because	 of 	 the	 potential	 shortfall	 in	 future	 fee	
       the short and long term, and (3) offers professional
                                                                               collections. The current model for financing USPTO’s
       development	and	other	incentives	to	attract	and	keep	
                                                                               critical	mission	warrants	attention	to	ensure	that	it	will	
       qualified candidates.
                                                                               continue to provide sufficient funding to process all
                                                                               backlogged applications as well as any newly filed.




                                                                           
Major Challenges for the Department                                                 September 008—Semiannual Report to Congress



        NOAA’s Ability to Conserve the Nation’s                         Management	Act,	which	requires	annual	catch	limits,	
        Fragile Oceans and Living Marine Re-                            an end to overfishing by 2011, and better integration
        sources While Ensuring a Vital U.S. Com-                        of fishery management planning with national envi-
        mercial Fishing Industry                                        ronmental	 review	procedures	to	ensure	the	environ-
                                                                        mental impacts of any significant ocean activity under
                                                                        consideration	 are	 thoroughly	 vetted.	 The	 success	 of 	
        According	to	NOAA,	3.5	million	square	miles	of 	our	            these	new	requirements	in	improving	the	status	of 	our	
        coastal	 and	 deep	 ocean	 waters	 and	 the	 Great	 Lakes	      marine	resources	depends	on	how	effectively	NOAA	
        support over 28 million jobs—one of every six—in                can	enforce	them	without	undermining	the	health	of 	
        the	 United	 States,	 and	 the	 value	 of 	 the	 U.S.	 ocean	   the U.S. fishing industry. To fulfill its mandates for liv-
        economy	tops	$115	billion.	But	these	economic	ben-              ing	 marine	 resources,	 NOAA	 also	 needs	 to	 take	 ac-
        efits come at great cost as the health of our ocean and         tion	to	rebuild	populations	of 	protected	species,	con-
        coastal	ecosystems	continues	to	decline	in	the	face	of 	        serve	 important	 habitats,	 and	 undertake	 the	 science	
        increasing coastal development, pollution, overfish-            programs	necessary	to	improve	its	understanding	of 	
        ing,	and	the	destructive	impact	of 	invasive	species.	          complex	marine	ecosystems.
        Charged	with	maintaining	and	improving	the	viability	
                                                                        BIS’ Setbacks in Modernizing Its Obso-
        of 	 marine	 and	 coastal	 ecosystems	 while	 supporting	
                                                                        lete Information Technology Infrastruc-
        global	marine	commerce	and	transportation,	NOAA	
        manages a significant portion of the federal govern-            ture to Strengthen the Dual-Use Export
        ment’s	investment	in	living	marine	resources.	It	faces	         Control System
        difficult challenges in promoting the health of these           	
        resources	 while	 ensuring	 they	 sustain	 the	 vital	 eco-     In January 2007, GAO added the Bureau of Indus-
        nomic benefits we derive from them.                             try	and	Security’s	dual-use	export	control	system	to	its	
                                                                        government-wide	high-risk	list.	One	of 	the	key	chal-
        In January 2007, the President signed the reautho-              lenges	facing	BIS	in	ensuring	that	the	dual-use	export	
        rized Magnuson-Stevens Fishery Conservation and                 control	 system	 is	 properly	 equipped	 to	 advance	 U.S.	
                                                                        national	security,	foreign	policy,	and	economic	inter-
                                                                        ests	 is	 the	 replacement	 of 	 its	 obsolete	 Export	 Con-
                                                                        trol Automated Support System (ECASS). BIS’ core
                                                                        export	administration	and	enforcement	business	pro-
                                                                        cesses	are	directly	supported	by	ECASS.	Approximate-
                                                                        ly 450 federal staff and 28,000 exporters currently use
                                                                        the system. However, the database structure—origi-
                                                                        nally deployed in 1984—is complex and no longer
                                                                        supported	 by	 the	 technology	 industry.	 The	 effort	 to	
                                                                        modernize ECASS began in 1996, but the project has
                                                                        been	beset	by	technical	problems,	schedule	slips,	and	
                                                                        funding	shortages	that	current	management	has	been	
                                                                        attempting	 to	 address	 in	 a	 budget-constrained	 envi-
                                                                        ronment.	

                                                                        The	current	projected	completion	date	for	the	ECASS	
                                                                        modernization is FY 2014. Based on our interviews,
                                                                        the	 total	 funding	 requirements	 for	 ECASS	 modern-
                                                                        ization are not clearly established. BIS must provide a
                                                                        comprehensive	plan	for	what	is	required	to	modern-
                                                                        ize ECASS, including how much it will cost and how
                                                                        it	will	avoid	the	management	and	technical	problems	



                                                                   0
September 008—Semiannual Report to Congress	                                                         Major Challenges for the Department



       experienced in past modernization attempts.                                defining requirements and developing and
                                                                                  testing	systems.
       Enhancing	the	performance	of 	ECASS	and	ensuring	
       continued	operation	of 	an	effective	licensing	informa-                • High-Risk Decennial Activities. Review	 cost,	
       tion	system	are	far	too	important	to	postpone	any	lon-                   schedule, and performance/quality issues,
       ger. BIS must demonstrate that it has a modernization                    with	 the	 goal	 of 	 providing	 timely	 analysis	
       strategy	 and	 plan	 in	 place	 to	 convincingly	 make	 the	             and	recommendations	for	decision	makers.
       case	for	increased	funding,	or	develop	a	plan	to	imple-                •	 Decision Documents and Expenditures. Identify	
       ment its ECASS modernization effort with existing                         the	 decision	 documentation	 and	 other	 in-
       resources (i.e., reallocate existing funding).                            formation	 used	 to	 support	 allocations	 and	
                                                                                 spending	for	the	2010	census	and	determine	
                                                                                 whether	they	are	consistent	with	planned	ac-
                                                                                 tivities	and	budget	requests.
       Work in Progress
                                                                           2008 Dress Rehearsal Test of Address Canvass-
       During this reporting period, the Office of Inspec-
                                                                           ing Operation
       tor	 General	 initiated	 the	 following	 audits	 and	 evalu-
       ations:                                                             Determine	 the	 extent	 to	
                                                                           which	address	canvassing	
       BIS                                                                 improved	 the	 accuracy	
                                                                           of 	 the	 master	 address	
       IT Infrastructure System
                                                                           file—the comprehensive,
       Determine	whether	continuous	monitoring	of 	infor-                  nationwide	listing	of 	ad-
       mation security controls is (1) keeping the authoriz-               dresses	 the	 bureau	 will	
       ing official sufficiently informed about the operational            use	 to	 contact	 house-
       status and effectiveness of security controls; and (2)              holds	either	via	mail	or	in	
       resulting in prompt mitigation of any identified se-                person	 to	 collect	 census	
       curity control deficiencies. Also assess whether BIS                data.
       has resolved deficiencies we identified in our FY 2006
       Federal	Information	Security	Management	Act	evalu-                  NIST
       ation.	
                                                                           Policies and Procedures for Handling Radioac-
                                                                           tive Materials
       Issues Related to the Bureau of Industry and
       Security’s Budget and Responsibilities for Inter-          Evaluate	NIST’s	training,	safety,	and	response	policies	
       national Treaty Implementation and Compliance              and	procedures	relative	to	radioactive	materials	as	well	
                                                                  as	controls	over	its	inventory	of 	and	access	to	these	
       Review	 budget	 management	 practices	 in	 the	 Bureau	
                                                                  materials.	 Also	 assess	 whether	 the	 agency’s	 manage-
       of 	Industry	and	Security	related	to	international	treaty	
                                                                  ment	 structure	 facilitates	 incident	 preparedness	 and	
       implementation	and	compliance	activities.	
                                                                  response,	and	the	extent	to	which	security	and	emer-
                                                                  gency	protocols	protect	the	health	and	safety	of 	NIST	
       Census
                                                                  employees	at	research	labs	and	the	surrounding	com-
       2010 Decennial Census Reviews in Response to               munities.
       Commerce Secretary’s Request
                                                                  NOAA
            •	 Field Data Collection Automation Contract.	
               Determine (1) why cost estimates have in-          National Marine Fisheries Service’s Northeast
               creased	while	the	scope	of 	the	contract	has	      Fisheries Science Center
               been reduced; (2) why funds were not avail-        Evaluate	NMFS’	implementation	of 	National	Standard	
               able	for	the	contract	to	proceed	as	planned;	      2	of 	the	Magnuson-Stevens	Fishery	Conservation	and	
               and (3) what went wrong with processes for         Management	 Act,	 which	 requires	 that	 conservation	


                                                                      
Major Challenges for the Department                                                September 008—Semiannual Report to Congress



        and management measures in fishery management
        plans be based on the best scientific information avail-       Converter Box Coupon Program
        able.	In	particular,	we	are	assessing	the	extent	to	which	
        the		“best	available	science”	has	been	used	in	develop-        Assess	 the	 adequacy	 of 	 NTIA’s	 controls	 to	 prevent	
        ing fishery management plans and NMFS’ procedures              waste,	fraud,	and	abuse	in	the	program,	and	the	effec-
        for	responding	to	data	requests	from	the	public.               tiveness	of 	its	program	and	contract	oversight.	

        Fisheries Finance Loan Program                                 USPTO
        Audit	 the	 operation	 and	 effectiveness	 of 	 the	 direct	 Quality Assurance Process
        loan	portion	of 	this	NOAA	program,	which	accounts	
                                                                          Determine (1) the effectiveness of USPTO’s patent
        for $412 million of the total amount of loans ap-
                                                                          quality	assurance	process	in	ensuring	that	established	
        proved	since	the	program’s	inception	in	FY	1997.
                                                                          standards	of 	patent	examination	quality	are	met,	and	
                                                                          (2) whether the process complies with applicable De-
        Facility Replacement Alternatives for NOAA’s                      partment,	bureau,	and	federal	laws,	regulations,	poli-
        Southwest Fisheries Science Center                                cies,	procedures,	and	guidelines.
        Evaluate NOAA’s cost-benefit analysis for selecting
        from	among	the	three	options	it	is	considering	for	re- FY 2008 Financial Statements and Information
        placing	one	of 	the	center’s	buildings.	                          Technology Controls
                                                                          Determine whether the financial statements are fairly
        Policies for Disseminating Research Data                          stated	in	accordance	with	generally	accepted	account-
        Assess	 Department	 and	 NOAA	 policies	 regarding	 ing	 principles.	 These	audits	 are	 performed	 by	 an	 in-
        public	 release	 of 	 research	 data	 in	 general,	 as	 well	 as	 dependent public accounting firm, under OIG over-
        the	events	surrounding	a	NOAA	web	site	article	and	 sight.
        follow-up	 fact	 sheet	 on	 Atlantic	 hurricanes	 and	 cli-
        mate.                                                             Department-wide
                                                                       FY 2008 Consolidated Financial Statements,
        NTIA                                                           Information Technology Controls, and Special
        Management of Public Safety Interoperable                      Purpose Statements
        Communications (PSIC) Grant Program                      Determine whether the financial statements are fairly
        Assess	management	of 	the	Public	Safety	Interopera- stated	in	accordance	with	generally	accepted	account-
        ble	Communications	grant	program	by	NTIA	and	the	 ing	 principles.	 These	audits	 are	 performed	 by	 an	 in-
        Federal	Emergency	Management	Agency	and	report	 dependent public accounting firm, under OIG over-
        to	 Congress	 as	 required	 by	 amendments	 to	 Section	 sight.
        3006	of 	the	Digital	Television	Transition	and	Public	
        Safety Act of 2005 (Title III of the Deficit Reduction Grants Oversight
        Act of 2005, Pub. L. No. 109-171).                       Assess	oversight	activities	designed	to	detect	and	pre-
                                                                 vent	fraud	in	the	various	grant	programs	administered	
        Audits of Arkansas, Louisiana, Nevada, and               by EDA, NIST (NIST and NTIA grants), and NOAA
        Pennsylvania Public Safety Interoperable Com-            (NOAA, ITA, MBDA, and Office of the Secretary
        munications Grants                                       grants); and consider the Office of Acquisition Man-
        Determine	the	progress	these	states	have	made	in	ac- agement’s	 role	 in	 the	 grants	 process,	 which	 includes	
        quiring	and	deploying	interoperable	communications	 developing,	coordinating,	and	overseeing	Commerce’s	
        with	PSIC	grant	funds	and	whether	their	use	of 	these	 financial assistance policy, and implementing gov-
        funds	is	meeting	all	federal	requirements.               ernment-wide	grants	policy	directives	at	the	Depart-
                                                                 ment.




                                                                  
      ECONOMICS AND STATISTICS 

          ADMINISTRATION


T       he Economics and Statistics Administration analyzes economic developments, formulates policy
        options, and produces a major share of U.S. government economic and demographic statistics. The
        chief economist monitors and analyzes economic developments and directs studies that have a bearing
on the formulation of economic policy. ESA has two principal agencies:

The U.S. Census Bureau is the country’s preeminent statistical collection and dissemination agency. It publishes
a wide variety of statistical data about the nation’s people and economy, conducting approximately 200 annual
surveys, in addition to the decennial census of the U.S. population and the quinquennial census of industry.

The Bureau of Economic Analysis prepares, develops, and interprets the national income and product accounts
(summarized by the gross domestic product), as well as aggregate measures of international, regional, and state
economic activity.




2010 Decennial Census: OIG Re-                                  enumerating hard-to-count populations. We summa­
                                                                rized our major findings as follows. Census’s response
views Through the Decade Iden-                                  to our findings and recommendations are presented
tify Significant Problems in Key                                in the individual reports, which are available at www.
                                                                oig.doc.gov.
Operations
                                                                Field Data Collection Automation
                                                                (FDCA) Contract (OSE-17368, OIG-
The Census Bureau’s announcement last April that it
                                                                17524)
would not use handheld computers to count Ameri­
cans who do not return 2010 census questionnaires
and the $2.2 billion to $3 billion increase in the esti­        The Census Bureau’s decision in 2001 to automate
mated life-cycle cost made it clear that the 2010 census        certain major operations for the 2010 decennial posed
was at risk. The Office of Inspector General issued a           significant risks while offering considerable potential
briefing report on the work we had conducted on the             efficiencies, savings, and improvements in the count.
decennial census to that point: the six reports we is­          The handheld computers Census proposed using
sued between 2000 and April 2008 highlighted a series           were the centerpiece of its reengineered field opera­
of continuing problems in the areas of contracting,             tions. But problems with their development have led
maps and address lists, systems development, and                to an enormous growth in the estimate to complete
                                                                the FDCA contract and have impacted the entire 2010


                                                           13
Economics and Statistics Administration                                                                     September 2008—Semiannual Report to Congress



         operational plan. In 2005, we reported numerous is­                                   al continued to find errors in the lists that resulted in
         sues with the acquisition process for the handheld de­                                duplicate addresses or missed housing units.
         vices. Census had originally intended to develop them
         in-house and tested prototypes in both 2004 and 2006.                                 Inadequate maps and address lists were an issue during
         The devices and related systems had serious problems                                  the 2006 test of update/enumerate—the paper-based
         in both tests, including crashes, slow response times,                                operation Census uses to survey American Indians liv­
         and lost data. These experiences should have better                                   ing on reservations—and these tools were a key factor
         informed the bureau’s efforts to define requirements                                  in the operation’s failure to improve the population
         for the contractor. Since letting the contract, Census                                count. We found that enumerators often could not lo­
         has changed and added numerous requirements be­                                       cate households because maps lacked current commu­
         fore finally abandoning plans to use these devices for                                nity landmarks and other details that help one navigate
         nonresponse follow-up.                                                                large rural communities devoid of traditional postal
                                                                                               addresses. The bureau had expected the handheld de­
         Maps and Addresses (OIG-17524,                                                        vices to facilitate its ability to improve map details and
         OSE-18027, OSE-15725)                                                                 address lists during address canvassing. But the tech­
                                                                                               nical problems with the systems we noted in both the
         Developing an accurate master address file (MAF) and                                  2004 and 2006 tests prevented field staff from mak­
         maps has been a long-standing problem for the bu­                                     ing the extensive corrections needed. To compensate
         reau. Our reviews have found numerous instances in                                    for the map deficiencies, we recommended that the
         which enumerators are sent into the field with incor­                                 bureau equip enumerators with handheld computers
         rect maps and address information.                                                    containing GPS for navigation and the GPS coordi­
                                                                                               nates collected during address canvassing.
         Map and Address Reliability
         In Census 2000, the master address list contained mil­                                System and Software Development
         lions of duplicates. Our 2008 review of the address                                   Shortly after the 2000 census, the Census Bureau initi­
         canvassing operation conducted during dress rehears-                                  ated an in-house upgrade of the technology support­
                                                                                               ing MAF/TIGER1 to improve map and address ac­
                                                                                               curacy for 2010. We evaluated the upgrade project in
                                                                                               its early stages, and found that the bureau did not have
                                                                                               an effective management process in place at the proj­
                                                                                               ect’s inception: system requirements, a work plan, and
                                                                                               project schedule were not developed in tandem, and
                                                                                               this complex redesign got a late start. We also found
                                                                                               that the bureau’s software development process did
                                                                                               not follow key industry standards and best practices
                                                                                               for minimizing risk.

                                                                                               Quality Control
                                                                                               Without sound quality control procedures, Census
                                                                                               lacks assurance that field operations are working as in­
                                                                                               tended and the data collected is reliable. Our reviews of
                                                                                               census operations tested in 2006 recommended some
                                                                                               enhancements to the quality check for group quarters
                                                                                    OIG        address lists to improve their accuracy, and to qual­
         Four people attempted to sort out this area using maps that lacked land­
                                                                                               ity procedures in update/enumerate to better identify
         marks and some roads. They introduced numerous errors to the housing                  missed housing units. In the 2008 dress rehearsal, the
         information.                                                                          bureau greatly streamlined quality control procedures
                                                                                               1
                                                                                                    TIGER stands for Topologically Integrated Geographic En­
                                                                                                   coding and Referencing.



                                                                                          14
September 2008—Semiannual Report to Congress                                                                      Economics and Statistics Administration



       for address canvassing, but technology problems pre­                             reau made little progress in improving its ability to
       vented Census from collecting reliable data to assess                            count this population: criteria were ambiguous and
       and improve the procedures before 2010.                                          were developed after training materials had been pre­
                                                                                        pared. The materials therefore did not offer adequate
       Hard-to-Count Populations (OSE-                                                  instruction on how to differentiate and properly cat­
       18027, IPE-18046, OIG-16949)                                                     egorize certain types of group homes.

       The Census Bureau develops separate operations that                              Census addressed some of these problems in the 2006
       target people who are especially difficult to count,                             test. It developed and verified a list of group quarters
       such as the homeless, or those who live in remote ar­                            and either helped residents complete the form, left
       eas or in certain types of group situations (e.g., pris­                         census questionnaires to be picked up at a later time,
       ons, college dormitories). We evaluated the 2004 and                             or used administrative records to fill in the needed in­
       2006 tests of several of the operations.                                         formation. Even so, the response rate among certain
                                                                                        groups was low. (OIG-19217)
       Update/Enumerate
       This operation is used to survey reservations and oth­
       er sparsely populated, remote locations, and update                              Plans, Costs for Fingerprinting
       maps and addresses. Our review of the update/enu­
       merate operation tested in 2006 evaluated the impact
                                                                                        Temporary Staff Remain
       of a change to better capture reservation household                              Uncertain
       size and found it to be ineffective, ultimately adding
       only one person to the total number of residents in                              Census must conduct background checks to assess the
       these households.                                                                suitability of all temporary decennial employees. For
                                                                                        the 2010 decennial, Census plans for the first time to
                                                                                        submit applicants’ fingerprints along with background
                                                                                        check requests to meet the requirements of the Na­
                                                                                        tional Crime Prevention and Privacy Compact Act of
                                                                                        1998. The Compact generally requires that biometric
                                                                                        information accompany requests for criminal history
                                                                                        records that are being accessed for purposes unrelated
                                                                                        to criminal justice matters, such as determining em­
                                                                                        ployment suitability. The bureau expects to hire 1.3
                                                                                        million temporary workers to conduct the 2010 cen­
                                                                                        sus. The FBI estimates that about 1 percent of these
                                                                                        workers—or 13,000—will have criminal backgrounds
                                                                                        that will not be correctly detected by a name check
                                                                                        alone.

                                                                                OIG
       Small residential group quarters often blend into single family neighborhoods    Fingerprinting will help mitigate the risk of hiring
       and are incorrectly enumerated. This convent in the Austin, TX, test site        temporary employees with unsuitable backgrounds,
       was not counted as a group quarters.                                             but it is a major new operation for the decennial cen­
                                                                                        sus that could cost hundreds of millions of dollars.
       Group Quarters                                                                   Census has developed several cost estimates for the
       People who live in group situations (college dormi­                              operation that reflect different assumptions and op­
       tories, nursing homes, prisons, and group homes) are                             erational plans. We examined its April 1, 2008, esti­
       hard to count accurately, partly because developing                              mate of $494 million to identify possible cost reduc­
       precise criteria for identifying who to include in this                          tions and recommended a number of cost-cutting
       group is difficult. Our review of the group quarters                             measures, which we summarize here and which the
       enumeration approach tested in 2004 found the bu-


                                                                                       15
Economics and Statistics Administration                                        September 2008—Semiannual Report to Congress



         bureau incorporated in a subsequent estimate released      Department and Census decide to
         on May 1.                                                  make other changes
         A more pressing concern, however, is that opera­           Concurrent with our review, the Department also
         tional plans and funding for satisfying legal require­     worked with Census to identify possible savings. Like
         ments under the Compact remain unresolved. We              OIG, the Department suggested that Census reuse
         first urged Census and the Department to resolve the       some fingerprinting kits, specifically, those purchased
         fingerprinting issue promptly in February 2008 and         to fingerprint recruits hired for operations that pre­
         reiterated our concern in our March 2008 Semiannual        cede nonresponse follow-up (e.g., address canvass­
         Report to Congress. Commerce’s June 2008 amended           ing). In addition, Department and Census officials
         FY 2009 budget submission to Congress included             decided on the following changes:
         $10 million for “exploring options to most efficiently
         incorporate fingerprinting into [the bureau’s] overall       •		 Reduce the assumed travel time and distance
         screening process.” According to the May cost esti­              for temporary employees’ commuting to ad­
         mate, Census will need $56 million for fingerprint­              ministrative sessions, which reduced the May
         ing during FY 2009. The continuing uncertainty sur­              estimate for mileage reimbursement. However,
         rounding fingerprinting plans increases operational              we note that neither the April nor May esti­
         risks and makes it impossible to accurately estimate             mates for travel time and distance are support­
         and budget for decennial operations.                             ed by benchmark data from Census 2000.
                                                                      •	 Cut class sizes from 16 to 12, which shortened
         Census shaves nearly $100 million                                the time examiners need to fingerprint the
         from estimate in response to OIG                                 class.
         analysis                                                     •		 Reduce the number of scanners needed for
                                                                          scanning fingerprint cards and the fees paid to
         Our review of the April 1 estimate found that the                the FBI for conducting the checks.
         number was inflated by $46.1 million because Cen­            •		 Modify assumptions for handling personally
         sus had double-counted certain administrative costs.             identifiable information, shipping the finger­
         We also identified measures for reducing costs of                print cards, and hiring a contractor to train ex­
         examiner training and fingerprinting kits, for another           aminers.
         $53.5 million in savings. Specifically, we suggested
         that the bureau hold several “administrative” days,        These adjustments accounted for another $46.4 mil­
         during which examiners fingerprint temporary hires,        lion reduction in the May estimate.
         rather than just one such day as originally intended.
         This would reduce the number of examiners and fin­         Additional savings may be possible
         gerprinting kits needed, and thus reduce associated
         training and materials costs. The examiners would          While the May projection was substantially lower than
         fingerprint several groups of temporary staff over         the April one, we found that the estimate for process­
         successive days and reuse their fingerprinting kits at     ing fingerprinting kits should have been $3.5 million
         each session.                                              lower to reflect the purchase of fewer kits. We also
                                                                    noted that costs for examiner training and scanning
         Census’s May estimate eliminated the double-counted        equipment could be cut further if the bureau adds
         cost and assumed two administrative days, which cut        additional administrative days.
         the number of examiners by about 60,000 and saved
         $30.5 million in related training costs. It changed its
         cost model assumptions to account for reusing fin­
         gerprint kits, for a savings of $23 million.




                                                               16
September 2008—Semiannual Report to Congress	                                                   Economics and Statistics Administration




       Our Recommendations                                             work concluded to determine whether continuous
                                                                       monitoring was in fact having the desired effect of
       We recommended that the Department and the Cen­                 mitigating the deficiencies we had identified. We found
       sus Bureau do the following:                                    that it was: many of the problems noted in our C&A
         1.	 Finalize plans and cost estimates for finger­             review had been corrected.
             printing temporary workers during 2010 that
             comply with all applicable legal requirements in          The results of our FISMA work at BEA and Census
             order to reduce uncertainty and the associated            are summarized below.
             operational and budget risks.
         2.	 Assess the cost and operational implications of
             processing fewer fingerprint kits, adding more            Testing Security Controls and
             administrative sessions, and reducing the num­
             ber of scanners required as more sessions are
                                                                       Tracking Vulnerabilities Among
             added.                                                    Weak Points in BEA Certification
         3.	 Further evaluate the time and distance assump­            Process
             tions required for travel to training locations to
             ensure that they are consistent with available            BEA-EITS handles all of the bureau’s mission-related
             benchmark data from the 2000 decennial.                   information technology operations and data—much
                                                                       of which is of critical importance to the nation. Ac­
       Bureau Response                                                 cording to its own description, BEA “produces some
                                                                       of the most closely watched U.S. economic statistics
       Census officials stated that they, along with the De­           that influence critical financial decisions made by gov­
       partment, have considered our recommendations and               ernments, businesses, and households.” BEA-EITS
       made progress toward specifying the operational pro­            supports the agency’s core business processes of col­
       cedures and estimated costs of fingerprinting for the           lecting, analyzing, tabulating, and disseminating data.
       2010 Census. (OIG-19058-1)
                                                                       Our review found that the system security plan was
                                                                       adequate to support the certification process. But the
                                                                       resulting certification had a number of weaknesses:
       FISMA Reviews at BEA and
       Census Identified Certification                                   •	  It lacked credible supporting evidence that se­
       and Accreditation Weaknesses,                                         curity controls on system components were
                                                                             properly tested to verify they were implement­
       But Continuous Monitoring                                             ed correctly and operating as intended.
       Leads to Improvements                                             •		 It did not include some significant system vul­
                                                                             nerabilities in either the security assessment re­
                                                                             port or in the agency’s plan of action and mile­
       To meet FY 2008 FISMA reporting requirements, we                      stones (POA&Ms) document.
       evaluated the certification and accreditation of the
       Bureau of Economic Analysis’s Estimation Informa­               Our own assessment of a set of system components
       tion Technology System (BEA-EITS), Census’s Wire­               found significant security control weaknesses that
       less Data Communications General Support System,                BEA’s certification did not identify.
       and the Field Data Collection Automation system. We
       also tested selected security controls on BEA-EITS              We concluded that BEA needs to, among other things,
       and the Wireless Data Communications system.                    improve security control assessments to (1) include
                                                                       adequate detailed and credible validation of the as­
       To gauge the impact of continuous monitoring—a                  sessments’ scope, procedures, and outcomes for spe­
       process that is emphasized in the latest FISMA guid­            cific system components; (2) comply with Department
       ance—we revisited the BEA system after our C&A


                                                                  17
Economics and Statistics Administration                                                                      September 2008—Semiannual Report to Congress



         policy and FISMA guidance for tracking and correct­                                      Improved Security Control As-
         ing system security weaknesses; and (3) clearly articu­
         late in the C&A documentation the vulnerabilities for
                                                                                                  sessments Needed for Other-
         which the bureau is accepting risk.                                                      wise Acceptable Census C&A
                                                                                                  Process
         Bureau Response
                                                                                                  The Wireless Data Communications system enables
         BEA did not specifically indicate whether it agreed                                      office automation, communications, file access, and
         with our findings (with the exception of the need to                                     other services for approved wireless devices. The sys­
         better track security weaknesses), and its proposed                                      tem comprises two wireless network domains: a secure
         corrective actions are not fully responsive to our rec­                                  network that handles day-to-day business information
         ommendations. The bureau did indicate its intention                                      and is restricted to sworn Census employees and a
         to use our recommendations to improve BEA infor­                                         guest network that permits non-Census personnel to
         mation security, and noted that it has improved its                                      access the Internet.
         continuous monitoring program to ensure it assesses
         the effectiveness of security controls on all system                                     Our review showed the system security plan was gen­
         components. (OSE-19001)                                                                  erally adequate and certification assessments were
                                                                                                  generally effective and comprehensive but some im­
                                                                                                  provements were needed in both: several control de­
                                                                                                  scriptions in the security plan did not fully address
                      Why Is Continuous 
                                                         control requirements, some controls were inaccurately
                     Monitoring Important?
                                                       identified, and some assessment procedures were not
           A critical aspect of the security authorization                                        sufficient to validate all control requirements.
           process is the post-authorization period involv­
           ing the continuous monitoring of an information                                        In addition, our own assessment of system compo­
           system’s security controls (including common                                           nents uncovered vulnerabilities in five areas that re­
           controls).                                                                             quired remediation. We concluded that the certifica­
                                                                                                  tion was sufficient for the authorizing official to make
           The ultimate objective of the continuous moni­                                         a credible, risk-based decision to approve system op­
           toring program is to determine if the security                                         eration, but Census needs to improve security control
           controls in the information system continue to                                         assessments.
           be effective over time in light of the inevitable
           changes that occur in the system as well as the                                        Bureau Response
           environment in which the system operates. Con­
           tinuous monitoring is a proven technique to ad­                                        Census concurred with our recommendations but took
           dress the security impacts on information systems                                      exception to four of the vulnerabilities we identified
           resulting from changes to the hardware, software,                                      during our tests of system components. The bureau
           firmware, or operational environment.                                                  contended that one of the four is not applicable to the
                                                                                                  system, but we disagreed and reiterated our recom­
                                                                                                  mendation that it be remediated. Census stated that
                                                         NIST Special Publication 800-37
                           Guide for Security Authorization of Federal Information Systems
                                                                                                  the remaining three—which pertain to system access,
                                                           A Security Life Cycle Approach         user identification and authentication, and audit logs
                                                                             August 2008
                                                                                                  of system activity—cannot be remediated because the
                                                                                                  system cannot support the necessary changes. How­
                                                                                                  ever, the bureau subsequently agreed that one of the
                                                                                                  three could be resolved and indicated it is taking steps
                                                                                                  to do so. We again reiterated the need for addressing
                                                                                                  the other two in order to optimize the system’s secu­
                                                                                                  rity status. (OSE-19163)


                                                                                             18
September 2008—Semiannual Report to Congress                                                Economics and Statistics Administration




       Inadequate C&A for Field Data                               We recommended that Census ensure certification
                                                                   and accreditation do not commence until the security
       Collection Automation System                                plan has been approved, secure configuration settings
                                                                   for all system components are defined and evaluated,
       We evaluated the certification and accreditation of         all security controls tested according to applicable
       the FDCA system as configured to support address            procedures, and identified vulnerabilities reported and
       canvassing during FY 2008 dress rehearsal operations.       tracked on the system POA&M.
       This C&A is the first of at least three that Census will
       complete before the system’s final configuration for        Bureau Response
       the 2010 decennial.
                                                                   The Census Bureau concurred with our recommenda­
       We found the system security plan was generally ad­         tions and described corrective actions to resolve them.
       equate but the bureau began certification assessments       (OSE-19164)
       several months before the plan had been approved. We
       also found the bureau had not defined secure configu­
       ration settings for a number of system components,
       had not evaluated established settings for others, and
       did not test several security controls. Finally, vulner­
       abilities discovered during the C&A process were not
       included in either the security assessment report or
       the plan of action and milestones, which means the
       authorizing official approved the system’s operation
       without complete, accurate information regarding its
       security status.




                                                                  19
Photo Courtesy NOAA/National Undersea Research Program

NOAA researchers preparing to drill into a coral reef
to study climate over the past 20,000 years.
                                                                            ATMOSPHER
                                                                        AND          IC
                                                                   IC                   A    D
                                                                AN




                                                                                             MI
                                                    CE




                                                                                               NIS
                                                      LO




                                                                                                   TRA
                                               NATIONA




                                                                                                      T
                                                                                                     ION
                                                           S.




                                                    U.




                                                                                             CE
                                                                DE                               R
                                                                     PA R                   ME
                                                                          T   MENT OF COM




   NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

T       he National Oceanic and Atmospheric Administration studies climate and global change; ensures
        the protection of coastal oceans and the management of marine resources; provides weather services;
        and manages worldwide environmental data. NOAA does this through the following organizations:

National Weather Service reports the weather of the United States and provides weather forecasts and warnings
to the general public.

National Ocean Service provides products, services, and information that promote safe navigation, support
coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

National Marine Fisheries Service is dedicated to the stewardship of living marine resources through science-
based conservation and management, and the promotion of healthy ecosystems.

National Environmental Satellite, Data, and Information Service observes the environment by operating a national
satellite system.

Office of Oceanic and Atmospheric Research conducts environmental research, provides scientific information
and research leadership, and transfers research into products and services to help NOAA meet the evolving
economic, social, and environmental needs of the nation.

Office of Program Planning and Integration develops and coordinates NOAA’s strategic plan, supports organiza-
tion-wide planning activities, guides managers and employees on program and performance management, and
integrates policy analyses with decision-making.


Data Buoy System Found to Have                                                      buoys and Coastal Marine Automated Network, or
                                                                                    C-MAN, stations; (2) Deep-Ocean Assessment and
Declining Data Availability and                                                     Reporting of Tsunami (DART) buoys; and (3) Tropi­
Ineffective Contracting Practices                                                   cal Atmosphere and Ocean (TAO) buoys. The latter
                                                                                    two systems were developed and formerly operated
                                                                                    by NOAA’s Pacific Marine Environment Laboratory
NWS’ National Data Buoy Center (NDBC) operates                                      (PMEL).
three major buoy systems and a network of coastal
marine observing stations that provide critical data                                In 2005, NDBC signed an indefinite-delivery indefi­
on oceanic and atmospheric conditions for weather                                   nite-quantity contract with Science Applications Inter­
forecasters, oceanographers, commercial fishers, and                                national Corporation (SAIC) to operate and maintain
others. The systems consist of (1) off-shore weather


                                                                               21
National Oceanic and Atmospheric Administration                                                             September 2008—Semiannual Report to Congress



                                                                                                Unsuccessful repair calls

                                                                                                Frequent unsuccessful service visits complicate the
                                                                                                center’s efforts to maintain data availability. Coast
                                                                                                Guard records indicated that between July 2005 and
                                                                                                July 2007, 51 of 101 weather buoys received multiple
                                                                                                service visits, with the average interval between visits
                                                                                                only 107 days. Contractor error resulted in unsuccess­
                                                                                                ful service outcomes for approximately 18 percent of
                                                                                                the service visits in our sample. Factors such as in­
                                                                                                complete records and inadequate training contributed
                                                                                                to these errors. NDBC should work with its contrac­
                                                                                                tor to address these issues and reduce the number of
                                                                                                unsuccessful service visits.
                                                   US Coast Guard photo by Tyler Johnson

        A runaway NOAA weather buoy is recovered by the USCGC Ironwood
                                                                                                Unclear ship transit requirements
        after it drifted for six months in the Gulf of Alaska. The buoy will be
        repaired and returned to its station roughly 300 miles southwest of Kodiak              Both center and contractor personnel claimed that
        Island.                                                                                 maintenance and repair efforts are further compli­
                                                                                                cated by insufficient Coast Guard ship transport.
        the buoy networks. The contract has a $500 million                                      But NDBC could not document this shortage or cite
        ceiling, with a 5-year base term and the possibility of                                 specific cases in which ship transit requests had been
        five 1-year extensions. The U.S. Coast Guard provides                                   denied. And we found that the center was unsure of
        the center with ship transit to the weather buoys for                                   its exact ship transit needs because it had not clearly
        repair and maintenance, under the terms of a 1993                                       defined what service intervals are required to main­
        memorandum of understanding. NDBC leases pri­                                           tain data availability and had not fully utilized available
        vately owned vessels to service the DART buoys and                                      Coast Guard resources.
        uses a NOAA ship to service the TAO buoys.
                                                                                                We recommended that the center and its contractor
        We evaluated (1) the center’s maintenance and repair                                    (1) more clearly define required service schedules, (2)
        operations for the buoys; (2) the adequacy and reli­                                    better coordinate ship transit needs with the Coast
        ability of the buoy data; (3) the structure and admin­                                  Guard, and (3) identify and prioritize its inventory de­
        istration of the support services contract; and (4) the                                 ficiencies and take action to address them.
        transfer of the TAO and DART programs to NDBC.
        Our observations are as follows:                                                        Deployment of untested equipment

        Declining availability of data from                                                     We also found that NDBC deployed new oceano­
        weather buoys                                                                           graphic sensors without adequately testing them to
                                                                                                ensure they work properly, and two of the three types
        Though the center has historically met or exceeded                                      deployed—current and salinity sensors—proved to
        its performance goals for the systems, weather buoy                                     be unreliable. Less than a third of these sensors were
        performance fell off sharply after August 2006. Data                                    functioning at the time of our review, and NDBC will
        availability—the percentage of time that a typical buoy                                 have to make adjustments to the 27 separate platforms
        is operating properly and providing data—reached a                                      on which the sensors were installed. In the future,
        3-year low of 71.7 percent in April 2007—almost 19                                      NDBC should test new sensors on a limited number
        percentage points below the 10-year average and more                                    of buoys before widely deploying them.
        than 13 percentage points below the performance
        goal.



                                                                                           22
September 2008—Semiannual Report to Congress                                               National Oceanic and Atmospheric Administration



       Structure of contract incentives needs                          began the TAO transition in 2005. Both transitions
       to be improved                                                  were problematic and NOAA oversight during the
                                                                       transitions was inadequate. In the case of DART, the
       In order to provide a performance incentive for the             center was not sufficiently prepared to fully support
       contractor, the center’s contract with SAIC allows for          the buoys: NOAA had not clearly defined data col­
       the extension of the contract term beyond the 5-year            lection requirements and the center did not have the
       base. However, the contract does not clearly define             technical capabilities to collect certain information.
       this provision and does not establish the prices of ser­        These problems, among other things, contributed to
       vices to be delivered after the 5-year base term. NDBC          the loss of important observational data on the 2004
       should address the ambiguity and pricing issues. It             Sumatra tsunami.
       should also obtain an opinion from the Department’s
       Office of General Counsel on the permissibility of              For TAO, the center did not receive needed mainte­
       the extension or recompete the contract before the              nance documentation and technical specifications, or
       expiration of the base term.                                    enough funding to complete a required technology re­
                                                                       fresh. NOAA also did not provide adequate resources
       The contract’s questionable award-term provision is             to support data collection and dual operations at both
       in part a reflection of the lack of departmental guid­          PMEL and NDBC during the transition period. In
       ance on the use of award-term incentives. Commerce              addition, NOAA researchers have been concerned
       needs to prepare guidance for its contracting officers          about NDBC’s ability and willingness to make needed
       on award-term contracts and issue an administrative             system modifications to meet evolving data require­
       order clarifying the policies and procedures for its Ac­        ments.
       quisition Review Board.
                                                                       Despite the transitions, PMEL has been planning en­
       The contract’s fee scale does not promote superior              hancements for the two systems to meet various data
       performance: differences in award amounts for per­
       formance rated unsatisfactory through outstanding
       are insignificant. NDBC should adjust fees to maxi­
       mize their effect on contractor performance, as per­
       mitted by the terms of the existing contract.

       Inconsistent performance metrics

       Performance metrics for the contractor often do
       not give appropriate weight to the center’s core data
       availability goal and sometimes hold the contractor
       accountable for goals that differ from those of the
       center. NDBC has also not adequately disclosed all
       metrics and in some cases has been late in communi­
       cating them to the contractor. The center needs to en­
       sure performance metrics are consistent with its own,
       and communicate them to the contractor in a timely
       manner.

       Difficulties transitioning DART and                                                                                                        NOAA
       TAO buoy systems
                                                                       A repair technician services a TAO buoy deep in the Pacific Ocean.
                                                                       NOAA maintains approximately 55 TAO buoys throughout the equato­
       NOAA transitioned the DART buoys from PMEL to                   rial Pacific, enabling scientists to collect real-time, high-quality oceanographic
       the center over the course of 2 years (2001-03) and             and meteorological data for monitoring, forecasting, and understanding
                                                                       climate swings associated with El Niño and La Niña.



                                                                  23
National Oceanic and Atmospheric Administration                                     September 2008—Semiannual Report to Congress



        collection goals, and the center has similar projects un­    the use of incentives in government contracting and
        der way as well. Although the two are aware of each          expects Commerce-specific guidance to be developed
        other’s research efforts, they have not worked together      in tandem with this effort. He also noted the Depart­
        or consulted each other on the scope and objectives          ment is refining the role and structure of its acquisi­
        of their projects.                                           tion board in conjunction with developing a Depart­
                                                                     ment-level Investment Review Board, and a DAO
        In future transitions, NOAA management should en­            addressing both is forthcoming. (IPE-18585)
        sure that (1) the center develops a process to respond
        to emerging data requirements; (2) NOAA research
        organizations document the technical specifications
        and maintenance procedures of research systems; and          Joint Enforcement Agreements
        (3) NOAA updates its administrative order on tran­           Fall Short of Protection Potential
        sitions to address issues arising from the DART and
        TAO transitions.
                                                                     We assessed the efforts of the National Marine Fish­
                                                                     eries Service’s Office for Law Enforcement (OLE) to
        Finally, NOAA needs to foster improved internal
                                                                     target living marine resource violations through the
        communication and cooperation on research and de­
                                                                     joint enforcement agreement (JEA) program. OLE re­
        velopment projects, such as those being conducted by
                                                                     lies on the U.S. Coast Guard and coastal state1 marine
        PMEL and NDBC, to prevent duplication and ensure
                                                                     enforcement agencies for help enforcing federal fish­
        that individual design specifications consider the needs
                                                                     eries regulations within the 200 miles of U.S. coastline
        of all relevant organizations as appropriate.
                                                                     known as the U.S. Exclusive Economic Zone (EEZ).
                                                                     It uses joint enforcement agreements to transfer fed­
        Response from NOAA and the                                   eral dollars to its state partners to fund their federal
        Department                                                   enforcement activities.

        NOAA concurred with all of our recommendations.              We had looked at the JEA program in 20032 and iden­
        Among other things, the National Data Buoy Center            tified a number of needed improvements. We revis­
        now develops site-specific field service plans, conducts     ited the program during this semiannual period and
        pre-trip planning meetings, tracks the outcome of the        noted some progress, but found several deficiencies
        contractor’s buoy repair calls and has established a         that prevent NOAA from maximizing the benefits of
        comprehensive training program for technicians. It           its partnerships with the states. Our specific findings
        also is documenting standard procedures for on-site          are as follows:
        visits, improving coordination and information-shar­
        ing with the Coast Guard, and implementing stron­            JEA Activities Need to Be More
        ger inventory control processes. NOAA reports that           Closely Monitored
        it has improved its fee scale to provide the contractor
        with greater performance incentives, obtained a legal        In our March 2003 report, we recommended that OLE
        review of the contract term, and reevaluated perfor­         divisions regularly verify state-reported enforcement
        mance metrics.                                               activities and expenditures, and OLE headquarters
                                                                     conduct on-site reviews to confirm a partner’s accom­
        Regarding our two recommendations to the Depart-             plishments and internal controls over program funds.
        ment—that it issue guidance on the proper use of             OLE has since developed a Cooperative Enforcement
        award-term incentives, and prepare a Departmental            Program Manual and initiated performance reviews.
        Administrative Order clarifying the role and authori­        But the office has yet to (1) institute an adequate di­
        ties of the Commerce Acquisition Board—the Chief             1	
                                                                          The term “state” also includes “territory” and “common­
        Financial Officer and Assistant Secretary for Admin­              wealth.”
        istration reported that the Department is participating      2	
                                                                          NMFS Should Take a Number of Actions to Strengthen Fisheries En­
        in an interagency task force to develop guidelines on             forcement (IPE-15154/March 2003).




                                                                24
September 2008—Semiannual Report to Congress                                                                  National Oceanic and Atmospheric Administration



                                                                                       We recommended that OLE develop a strategy for
                                                                                       reviewing all partner programs that prioritizes the or­
                                                                                       der in which it assesses them, verifies and evaluates a
                                                                                       program’s internal controls and accomplishments, and
                                                                                       reports results to state JEA officials in a timely man­
                                                                                       ner.

                                                                                       Use of Summary Settlements Is Lim-
                                                                                       ited and Loosely Managed

                                                                                       The summary settlement system was designed to pro­
                                                                                       cess minor federal fishery violations efficiently by al­
                                                                                       lowing enforcement officials in the field to issue tick­
                                                                                       ets on the spot and giving violators the opportunity to
                                                        NMFS Office Law Enforcement    pay a reduced penalty within a specified time period, in
                                                                                       lieu of contesting an alleged violation and possibly go­
       Coast Guard and NOAA agents oversee crewmembers offloading their                ing to court. If the party chooses not to pay the fine,
       catch. Partnering with the Coast Guard and state enforcement agencies has
       enhanced NOAA’s ability to enforce fisheries regulations through at-sea
                                                                                       the case is forwarded for prosecution to NOAA’s Of­
       patrols and dockside inspections.                                               fice of General Counsel for Enforcement and Litiga­
                                                                                       tion (GCEL). Because summary settlements are a type
       vision-level program that fully and regularly verifies                          of civil penalty, law enforcement entities must receive
       state-reported activities or (2) conduct headquarters                           authority to use them from GCEL.
       performance reviews of most JEA partners.

       Division-level reviews

       Most OLE managers we spoke with stated that the
       divisions lack resources to improve monitoring. How­
       ever, five of the six division JEA coordinator posi­
       tions are fully funded by the JEA program, yet none
       of the coordinators works full time on JEA activities.
       Because the program accounts for a substantial por­
       tion of OLE’s federal fishery enforcement funding,
       we recommended that OLE ensure JEA coordinators
       dedicate 100 percent of their time to it. Additionally,
       OLE special agents in charge should regularly verify
       partner activities in order to tie program funding deci­
       sions to partner performance.

       Headquarters reviews

       OLE headquarters initiated independent reviews of                                                                                    NMFS Office Law Enforcement
       program partners in September 2006, and to date has
       reviewed 10 of the 27 states receiving JEA funds. But                               A deputized fisheries enforcement agent patrols protected waters looking for
       it has reported its findings to only 6 of the 10, even                              fisheries violations.
       though the remaining 4 reviews were completed more
       than a year ago. We found that OLE has no set time
       frame for reporting its results to the JEA partner upon
       completion of reviews.


                                                                                      25
National Oceanic and Atmospheric Administration                                September 2008—Semiannual Report to Congress



        Few partners authorized to use summary                      NOAA Response
        settlements
                                                                    NOAA agreed with all of our recommendations and
        We found that only 3 of the 27 JEA partner states           reported a series of actions it plans to take to imple­
        have authority to issue summary settlements. Some           ment them. (IPE-19050)
        GCEL attorneys are resistant to extending this au­
        thority to more partners because they are concerned
        their caseloads will increase with an influx of unpaid
        or appealed tickets requiring litigation. But GCEL has
                                                                    C&A Weaknesses Identified for
        not conducted any type of assessment to validate this       NOAA Systems, But Some
        concern.
                                                                    Improvements Were Made
        OLE indicated that it plans to collaborate with GCEL        Through Continuous Monitoring
        and JEA partners to determine the most strategic use
        of summary settlement authority. We support this ef­
        fort and recommended that OLE and GCEL develop              As part of our 2008 FISMA work, we evaluated the
        specific criteria or guidelines for determining where       C&A process for four NOAA systems: the National
        and how the summary settlement system should be             Weather Service’s Telecommunication Gateway and
        used.                                                       its International Satellite Communications System
                                                                    Data Acquisition and Delivery Network; the National
        No documented process for making                            Marine Fisheries Service’s Science and Technology
        and managing delegations of summary                         System, and the Satellite Environmental Process­
        settlement authority                                        ing System operated by the National Environmental
                                                                    Satellite, Data, and Information Service (NESDIS).
        GCEL lacks formal policies and procedures governing         We also tested selected security controls on the NWS
        how partners should receive and use summary settle­         Telecommunication Gateway and the NMFS Science
        ment authority. As a result, we found that at least five    and Technology System.
        states had been incorrectly told by OLE that they had
        summary settlement authority. OLE mistakenly be­            As we had done at BEA, we revisited three NOAA
        lieved that GCEL’s delegation of authority automati­        systems—the Gateway, International Satellite Com­
        cally applied to JEA partners via their deputization to     munications, and Science and Satellite Technology
        enforce federal fishery statutes. As our review was in      systems—after our C&A work had concluded to de­
        progress, GCEL instructed OLE to advise the states          termine whether continuous monitoring was in fact
        to stop issuing summary settlements because they had        having the desired effect. In the case of Gateway, we
        not been delegated this authority.                          found that NOAA had recertified the system and that
                                                                    the control assessments we reviewed were rigorous
        For the three states that did receive delegation of         and supported by adequate evidence. For the Interna­
        authority, we found very limited documentation sup­         tional Satellite system, NOAA provided evidence of
        porting the action—there is some electronic mail            improvements to the security control assessments that
        traffic between GCEL and OLE and OLE and state              occurred as part of its continuous monitoring pro­
        partners related to the two recent delegations, but no      gram. We found continuous monitoring for the Sci­
        documentation for the remaining one.                        ence and Technology system to be ineffective.

        We recommended that GCEL establish national poli­           The results of our FISMA work at NOAA are sum­
        cies and procedures for making and managing delega­         marized below.
        tions of summary settlement authority. These should
        include requirements for maintaining written docu­
        mentation of delegation decisions and providing writ­
        ten notification of these decisions to JEA partners.


                                                               26
September 2008—Semiannual Report to Congress                                     National Oceanic and Atmospheric Administration



       National Weather Service’s
       Gateway System Certification
       Assessments Were Deficient, But
       NOAA Took Action to Improve
       Them
       The gateway system collects, processes, and dissemi­
       nates national and international meteorological data
       and products in real time. The system interconnects
       with numerous other systems worldwide, and its data
       is used by other government agencies, the private sec­      system’s plan of action and milestones and remediate
       tor, and the general public.                                them in a timely manner, as well as ensure system se­
                                                                   curity plans are approved prior to certification; secure
       We found that NWS began certifying the system be­           configurations are defined and implemented on all
       fore it had adequately defined security controls in the     IT products; and assessments test controls on all ap­
       system security plan or gotten formal review and ap­        plicable system components according to applicable
       proval of the plan, resulting in an ineffective C&A         procedures.
       process. In fact, the plan was approved on the same
       date as the system was accredited, which means dur­         NOAA Response
       ing the course of the certification, certifiers lacked
       the information they needed to effectively assess con­      NOAA agreed with all but one of our findings, not­
       trols: the plan they were using contained incomplete        ing that the system security plan had been favorably
       specifications for security control enhancements and        reviewed by the NWS information security officer
       parameters, and it incorrectly identified a number of       and approving official prior to certification, though
       physical and environmental security controls.               not signed. NOAA described actions that are fully re­
                                                                   sponsive to our recommendations. (OSE-19000)
       In addition, we found that NWS did not test secure
       configuration settings for any system-related IT prod­
       ucts (e.g., servers, desktops, routers, switches) and in    Significant Weaknesses Evident
       some cases had not even defined these settings. We also
                                                                   in C&A for International Satel-
       found that certification assessments were incomplete
       and flawed—the C&A documentation lacked evidence            lite System, But Improvements
       of security control testing on several system compo­        Made Through Continuous
       nents and applications. In some cases, the assessment       Monitoring
       erroneously indicated that certain procedural steps for
       control assessments were related to NOAA common             The International Satellite Communications System
       controls (controls applicable to a number of systems).      Data Acquisition and Delivery Network is a complex
       In others, test results were inappropriately based on       wide area and satellite network designed to distribute
       interviews and document reviews or other improper           critical weather data to remote sites across the globe.
       procedures, contained inconsistent evidence, or did         The network consists of three earth stations, four
       not describe vulnerabilities discovered.                    contractor operations centers, and one NOAA loca­
                                                                   tion. A contractor has owned and operated the system
       Finally, in our own evaluation of a set of system com­      on behalf of NOAA since 2003, but it was granted its
       ponents we found significant control weaknesses not         first authorization to operate in March 2007.
       identified in the NWS security certification.
                                                                   A September 2006 OIG report, Additional Steps Are
       We recommended that NOAA, among other things,               Necessary to Provide Better Oversight of Contractor Infor­
       promptly add the deficiencies we identified to the


                                                                  27
National Oceanic and Atmospheric Administration                                     September 2008—Semiannual Report to Congress



                                                                         In performing the initial certification and accredita­
                  What Is a Certification and                            tion, NOAA and the contractor were essentially “start­
                   Accreditation Package?                                ing from scratch” in meeting FISMA requirements:
                                                                         the system had no defined accreditation boundary—
           Security certification and accreditation packages con­
           tain three elements, which form the basis of an autho­        that is, no inventory of all system resources to be ad­
           rizing official’s decision to accredit a system.              dressed in the C&A. There was also no security plan,
                                                                         and no specified security requirements and control
           1.	 The system security plan describes the system,            implementations. Secure configuration baselines were
               the requirements for security controls, and               not defined for IT products.
               the details of how the requirements are be­
               ing met. The security plan provides a basis               Our evaluation found that key C&A planning activities
               for assessing security controls also includes             were not adequate or appropriate: though NOAA had
               other documents such as the system risk as­               defined a security boundary, it was incomplete and in
               sessment and contingency plan, per Depart­                some cases inaccurate. System descriptions were de­
               ment policy.                                              ficient and remained so at the time of our review—
           2.	 The security assessment report presents the re­           more than a year after the system was authorized to
               sults of the security assessment and recom­               operate. We also found that the same individuals both
               mendations for correcting control deficien­               developed the security plan and assessed security con­
               cies or mitigating identified vulnerabilities.            trols, contrary to NIST requirements that these duties
               This report is prepared by the certification              be separated.
               agent.
           3.	 The plan of action & milestones is based on the           None of the significant deficiencies identified during
               results of the security assessment. It docu­              certification were properly listed on a plan of action
               ments actions taken or planned to address                 and milestones. Even after the plan was developed,
               remaining vulnerabilities in the system.                  NOAA did not submit it for more than a year after au­
                                                                         thorizing the system to operate, which prevented both
                                                                         the Department and OMB from properly tracking the
        mation Security (Report No. OSE-18028), found that               deficiencies’ resolution in the interim.
        NOAA was not applying FISMA and Commerce IT
        security requirements to some of its contractor-man­             Finally, letters justifying the accreditation decision in­
        aged information technology systems. So NOAA                     correctly asserted that security controls were in place
        subsequently decided the international satellite sys­            and a timetable for addressing vulnerabilities had been
        tem should meet those requirements and initiated the             established.
        certification and accreditation process that resulted in
        the 2007 authorization. NOAA’s service contract for              We recommended that NOAA properly define the ac­
        the system did not include the Department-mandated               creditation boundary and security controls in the sys­
        IT security clauses requiring a contractor’s compliance          tem security plan, the authorizing official approve the
        with Commerce and FISMA requirements. NOAA                       system security plan in accordance with NIST guid­
        told us that that its contractor was initially resistant         ance, and the certification agent not be involved in se­
        to adding these clauses because of cost and liability            curity planning activities. We also recommended that
        concerns. As a result, the agency devised an alterna­            NOAA set completion dates for resolving weaknesses
        tive contractual agreement to allow the contractor to            and submit the system POA&M to the Department in
        conduct the C&A, with agreement by both parties to               accordance with policy.
        subsequently add the IT security clauses and jointly
        manage the information system security. NOAA offi­               NOAA Response
        cials told us they viewed the C&A as an initial audit of
        the system, and as an opportunity for the contractor             NOAA officials generally agreed with our findings and
        to understand FISMA requirements.                                recommendations and described corrective actions to
                                                                         address them. (OSE-19166)


                                                                    28
September 2008—Semiannual Report to Congress                                      National Oceanic and Atmospheric Administration




       Widespread Weaknesses in C&A
                                                                      Additional Commerce Requirements
       for NMFS Science and Technol-
                                                                     Commerce’s IT Security Program Policy and
       ogy System                                                    Minimum Implementation Standards requires
                                                                     that C&A documentation contain supporting 

       The Science and Technology System processes com­              evidence of the adequacy of the security assess­
       plex scientific and general data for the National Ma­         ment. Two important components of this docu­
       rine Fisheries Service, and supports an array of agency       mentation are:

       operations and research—data and information man­
       agement, fisheries surveys, and stock assessments,            1.	 the certification test plan, which documents the 

       to name a few. NMFS Science and Technology staff                  scope and procedures for testing (assessing) 

       manages the system, but various information owners                the system’s ability to meet control require
­
       within NMFS manage the system’s applications and                  ments; and
       are responsible for related security controls.                2.	 the certification test results, which is the raw data 

                                                                         collected during the assessment.
 

       Our FISMA review of this system identified wide­
       spread weaknesses in the C&A process:
                                                                   security program in the months since the system’s ac­
         •	   The security plan did not provide an adequate        creditation may have addressed many of our concerns.
              basis for certification and accreditation.           The bureau also indicated that it is working with the
         •	   The certification team did not adequately assess     Department to deploy the Cyber Security Assessment
              controls.                                            and Management (CSAM) tool that it believes will fur­
         •	   The system plan of action and milestones did         ther address our recommendations.
              not report known vulnerabilities and was not
              submitted to the Department as required by           However, our check of subsequent security materials
              policy.                                              and activities indicate that the revised NMFS security
                                                                   program still falls short of meeting minimum security
       Our own assessment of certain system components             requirements—a situation confirmed by the results of
       found weaknesses in a number of operational and             continuous monitoring. While we do believe CSAM
       technical controls requiring remediation.                   will enable NOAA to better comply with FISMA and
                                                                   Department IT security policy requirements, we re­
       We concluded that the authorizing official lacked suffi­    main concerned that NOAA management is giving
       cient information about system vulnerabilities to make      insufficient attention to IT security at NMFS. (OSE­
       a credible, risk-based decision on whether to accredit      19165)
       the system.

       We advised NOAA to improve security planning to             NESDIS System Did Not Comply
       include all information required by the Department’s
       IT security policy and NIST guidance; ensure that the       with Department IT Security
       system’s security certification is based on a rigorous      Requirements
       assessment of controls; report known vulnerabili­
       ties—including those we identified in our own test-         The Satellite Environmental Processing System
       ing—on the system plan of action and milestones and         (SATEPS) collects, processes, stores, and disseminates
       submit the plan to the Department OCIO.                     global weather satellite data for foreign and domestic
                                                                   users.
       NOAA Response
                                                                   We selected SATEPS for review because according
       NOAA generally concurred with our findings and              to the Department’s information system inventory,
       recommendations, noting changes to the NMFS IT              it had been recently accredited, with an authorization


                                                              29
National Oceanic and Atmospheric Administration                                September 2008—Semiannual Report to Congress



         learned this information was incorrect. SATEPS was          SATEPS was finally decommissioned in February
         scheduled to be decommissioned prior to September           2008. In light of the security lapses the agency per­
         22, 2007, when its last authorization to operate would      mitted while the system was active, we recommended
         have expired. But decommissioning was delayed, so           that NOAA officials give NESDIS systems appropri­
         NESDIS extended the original authorization rather           ate management attention and ensure all systems are
         than initiate a new certification and accreditation pro­    operating in full compliance with the Department’s IT
         cess.                                                       security policy.

         Our evaluation found that SATEPS operated for at            NOAA Response
         least 2 years with significant deviations from manda­
         tory security requirements—most notably, the sys­           NOAA officials generally agreed with our findings
         tem’s security plan had not been updated since June         and recommendations, noting the deployment of the
         2005 and a number of required security controls were        Cyber Security Assessment and Management tool will
         not in place. NESDIS did not seek waivers from the          play a significant part in addressing our recommenda­
         Department to forgo these requirements, even though         tions. (OSE-19167)
         Commerce IT security policy obligates agencies to
         do so. Despite significant deficiencies with SATEPS’
         security controls, we found the authorizing official
         received sufficient information to make a credible,
         risk-based decision to extend SATEPS authorization
         to operate.




                                                                30
     UNITED STATES PATENT AND 

        TRADEMARK OFFICE
	

T       he United States Patent and Trademark Office administers the nation’s patent and trademark laws.
        Patents are granted and trademarks registered under a system intended to provide incentives to invent,
        invest in research, commercialize new technology, and draw attention to inventions that would oth-
erwise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information
disclosed in patents.




Comprehensive Operating Plan                              We evaluated the attaché program to learn whether
                                                          its objectives are adequate and how the attachés work
Needed for Overseas Intellectual                          with other government agencies. We also looked at
Property Rights Attaché Program                           USPTO’s attaché recruitment process, training, and
                                                          terms of appointment, as well as the agency’s method
                                                          of placing attachés in posts.
Theft of intellectual property rights—copyrights,
trademarks, patents, industrial designs, and trade se-
                                                          We found the attachés are generally coordinating their
crets—costs the United States hundreds of billions of
                                                          activities with other U.S. government agencies and
dollars each year and hundreds of thousands of jobs.
                                                          have good relationships with their U.S. mission coun­
It affects manufacturing, technology, pharmaceuticals,
                                                          terparts and with host government officials. However,
and numerous other industries.
                                                          the roles and responsibilities of the attachés in relation
                                                          to the International Trade Administration’s Commer­
The United States Patent and Trademark Office pro­
                                                          cial Service and the U.S. Department of State need to
motes intellectual property rights protection and en­
                                                          be better defined. In addition, guidelines and criteria
forcement domestically and abroad by conducting
                                                          for program expansion need to be addressed, as do
outreach and training activities, working to secure
                                                          attaché training and program continuity.
strong international agreements on intellectual prop­
erty rights, and encouraging U.S. trading partners to
                                                          We recommended USPTO develop and implement a
strictly enforce these agreements and protections.
                                                          comprehensive operating plan for the attaché program
                                                          in consultation with relevant U.S. government agen­
In 2005, USPTO began posting attaches at U.S. em­
                                                          cies to better integrate attachés in their respective U.S.
bassies to provide legal and technical expertise on
                                                          overseas missions and help them perform their du­
intellectual property rights issues. Attaches are cur­
                                                          ties effectively. The plan should cover everything from
rently posted in Brazil, China, Egypt, India, Russia,
                                                          recruiting candidates to ensuring intellectual property
and Thailand.
                                                          rights coverage and continuity when attachés




                                                     31
United States Patent and Trademark Office                                                          September 2008—Semiannual Report to Congress



                                                                                        included in the plan of action and milestones we re­
                                                                                        ceived for review.

                                                                                        Our evaluation identified a number of additional
                                                                                        weaknesses, for the most part pertaining to assess­
                                                                                        ment procedures that USPTO either omitted or per­
                                                                                        formed inadequately. For example, it assessed compo­
                                                                                        nents that were not within the system’s accreditation
                                                                                        boundary because system diagrams and component
                                                                         USPTO
                                                                                        inventories did not match; did not evaluate the ap­
                                                                                        propriateness of access control procedures, which
         Secretary Gutierrez poses with USPTO’s overseas intellectual property
                                                                                        we found to be lacking in substance; did not assess
         rights attaches at USPTO headquarters in December 2007. The group was
         gathered for a week-long consultation with USPTO colleagues, members of        whether system components are configured to disable
         industry, and other U.S. government agencies.                                  inactive accounts automatically; and did not follow
                                                                                        proper procedures for assessing remote access con­
         transition to other posts. USPTO agreed with our rec­                          trols.
         ommendation and told us it expects to have a plan in
         place by the first quarter of FY 2009. (IPE-19044)                             The contract staff operating the Landon IP system ex­
                                                                                        plained that system diagrams and inventories did not
                                                                                        match at the time of certification testing because the
                                                                                        system boundary had not been finalized. We recom­
         FISMA Reviews Identify                                                         mended that USPTO (1) define accreditation bound­
         Significant Weaknesses in                                                      aries before certification begins, and (2) add the defi­
                                                                                        ciencies identified by both the consultant and OIG to
         PatentSystems’ C&A Process                                                     the system’s plan of action and milestones.

         Security Plan, Assessments                                                     USPTO Response
         Lacking in Landon IP System
                                                                                        USPTO indicated its intent to comply with our rec­
         C&A                                                                            ommendations, but took exception to our finding that
                                                                                        certification testing occurred before the accreditation
         We evaluated the Landon IP information system,                                 boundary was finalized. The agency asserted that the
         which is owned and operated by a contractor. The                               boundary had been finalized prior to certification test­
         Landon IP system supports the USPTO international                              ing, and provided the date. We do not dispute the doc­
         patent application process under the Patent Coopera­                           ument may have been approved, but it clearly did not
         tion Treaty (PCT). The PCT provides a unified pro­                             reflect a final consensus. For example, the certification
         cedure for filing patent applications to protect inven­                        team assessed controls on the system’s web site, which
         tions in each of the states party to the treaty. Landon                        was not identified in the approved boundary definition
         IP analysts conduct searches on applications received                          document. During our review, both USPTO person­
         from USPTO via a secure communications channel,                                nel and Landon IP staff informed us that discussions
         develop opinion papers on the invention, and return                            about the system’s boundary were ongoing during
         the papers to USPTO via the same secure communi­                               testing, and the web site had been initially included in
         cations channel.                                                               the boundary but was later removed. (OSE-19367)

         Prior to our evaluation, UPSTO had a consultant in­
         dependently assess the system’s C&A documentation.
         The consultant reported significant deficiencies with
         the system security plan, contingency plan, and con­
         trol assessments. But these weaknesses were not



                                                                                   32
United States Patent and Trademark Office                                      September 2008—Semiannual Report to Congress



         Security Plan, Common Controls                             USPTO Response
         Weaknesses Among Problems
                                                                    USPTO generally concurred with our recommenda­
         Noted in C&A for Enterprise Re-                            tions but disagreed with our finding that the security
         mote Access System                                         plan did not fully define the accreditation boundary
                                                                    or test controls on certain components. The bureau
         The Enterprise Remote Access (ERA) System enables          contended that the boundary was accurately defined
         USPTO personnel to perform their official duties re­       and that the system owner does not manage the com­
         motely from alternative worksites supporting USPTO         ponent we stated should have been included. The
         telework programs and initiatives. ERA facilitates the     component, according to USPTO, was therefore not
         secure remote access of communications, protective         subject to control assessment.
         services, and network infrastructure support for all
         USPTO applications. ERA system components were             However, we note that the component was included
         certified and accredited under the USPTO Network           in the security plan’s desktop descriptions and was
         Perimeter system in FY 2007. However, due to the           referenced as within the boundary in our discussions
         large size of the USPTO infrastructure, management         with USPTO officials. Whether the component is or
         decided to restructure the accreditation boundary of       is not within the boundary, the discrepancy supports
         the Network Perimeter system into more manageable          our finding that the security plan needs improvement,
         components. USPTO’s chief information officer au­          to include precise definition of the system boundary,
         thorized ERA to operate on May 22, 2008.                   which will then dictate which components and as­
                                                                    sociated controls require testing. We learned that the
         Our review revealed the following:                         ERA system accreditation boundary is continuing to
                                                                    evolve and USPTO is aware of the need to clearly de­
           •	   The system security plan needs improvement—         fine boundaries in order to adequately plan and assess
                it did not fully define the accreditation bound­    controls. (OSE-19368)
                ary or adequately describe certain controls.
           •	   The common controls the bureau selected did         USPTO’s Privacy Impact Assess-
                not meet the system’s minimum security re­
                                                                    ment Process Met Federal Re-
                quirements.
           •	   A number of technical controls were not as­         quirements
                sessed. Numerous others were not assessed ac­
                cording to required procedures, yet they were       As part of our FISMA work, we assessed USPTO’s
                reported as fully meeting requirements.             privacy impact assessment process. The E-Govern­
           •	   The plan of action and milestones did not give      ment Act of 2002 requires agencies to conduct pri­
                completion dates for resolving deficiencies.        vacy impact assessments of information systems and
                                                                    collections containing personally identifiable informa­
         We concluded the C&A process did not give the au­          tion and, in general, to make these assessments pub­
         thorizing official the necessary information to make       licly available.
         a credible, risk-based accreditation decision. USPTO
         needs to ensure that all required system-specific and      We found that USPTO has implemented an effective
         common controls are implemented and must improve           process for conducting privacy impact assessments,
         control assessments to verify that controls are imple­     consistent with the E-Government Act and OMB
         mented correctly, operating as intended, and meeting       guidance. Since we made no recommendations and
         security requirements, and must ensure the certifica­      no actions were required of USPTO, we did not issue
         tion team has the access it needs to thoroughly assess     a report but included the results in our annual FISMA
         controls.                                                  report to OMB.




                                                               33
Photo Courtesy Commerce Photographic Services

Commerce Law Library
                     DEPARTMENT-WIDE
	
                       MANAGEMENT


T       he United States Department of Commerce creates the conditions for economic growth and oppor-
        tunity by promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department
        has three stated strategic goals:
         Goal 1: Provide the information and tools to maximize U.S. competitiveness.
         Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing 

         technical standards, and advancing measurement science. 

         Goal 3: Observe, protect, and manage the Earth’s resources to promote environmental stewardship. 

The Department has also established a Management Integration Goal that is equally important to all bureaus:
Achieve organizational and management excellence.



Commerce 2006 Earmarks Match                               which data was available. More than 90 percent of the
                                                           number of earmarks in Commerce went to NOAA,
Mission                                                    which had 298 earmarks totaling $594.5 million ($459
In August 2006, we received a request from Senator         million of which was for NOAA projects not included
Tom Coburn-R, OK, then-Chairman of the Subcom­             in the President’s budget).
mittee on Federal Financial Management, Government
Information, and International Security, to conduct an     Costs of Administering Earmarks Not
analysis of the Department’s congressional earmarks.       Separated
Senator Coburn asked that we determine (1) the total
number and cost of congressional earmarks within           Commerce bureaus do not account for staff time and
the programs monitored by OIG, including the cost          costs of administration for earmarks separately from
of each earmark itself and related costs such as staff     other costs. Bureaus have a variety of practices for
time and administration; (2) the specific oversight        charging fees for grant administration for earmarks.
conducted on earmarks and how the oversight com­           NOAA line offices may charge up to 5 percent of the
pares to that conducted on other expenditures such         earmark pursuant to the Department’s budget repro­
as grants and contracts, and (3) the overall impact of     gramming authority, which was capped at $750,000
earmarks on advancing the primary mission and goals        in FY 2006. ITA also charges for grant oversight and
of the Department.                                         administration, usually between 1.5 to 3 percent of an
                                                           earmark, totaling $355,402 in FY 2006. NIST does
We identified 327 earmarks totaling $798.8 million in      not charge earmarks a fee for grant administration.
FY 2006, or 9.6 percent of the total Commerce budget       Census, USPTO and the departmental management
of $8.3 billion for that year—the most recent year for     category do not have earmarked grants.



                                                      35
Department-wide Management                                                                         September 2008—Semiannual Report to Congress



       Oversight of Earmarks Is the Same                                                Privacy Impact Assessments Are
       We found oversight of FY 2006 earmarked grants
                                                                                        Generally Meeting Federal Re-
       and contracts is the same as the oversight for non-                              quirements But Must Be Updat-
       earmarked grants and contracts. Applications are re­
       quired, and recipients have to follow the same rules as
                                                                                        ed to Reflect Recent Commerce
       recipients of other types of awards.                                             Policy Changes
       Earmarks Are Consistent with                                                     Federal agencies obtain and maintain significant
       Department Goals and Mission                                                     amounts of personally identifiable information about
                                                                                        individuals, which must be protected. The E-Govern­
       Commerce bureau officials we interviewed were in                                 ment Act of 2002 requires agencies to conduct pri­
       agreement that all of the FY 2006 earmarks were con­                             vacy impact assessments of information systems and
       sistent with the Department’s mission and strategic                              collections containing personally identifiable informa­
       goals. Our review of a nonstatistical sample of 32 ear­                          tion and, in general, to make these assessments pub­
       marked grants from three Commerce bureaus (ITA,                                  licly available. The act also requires agencies to post
       NIST and NOAA) found that all were consistent with                               their privacy policies on their web sites in a computer-
       the mission of the Department.                                                   readable format. The Department’s IT privacy policy
       We did not make recommendations because the pur-                                 defines the responsibilities Commerce operating units
                                                                                        have for conducting impact assessments and posting
                                                                                        them along with web privacy policies on their web
                                                                                        sites.

                                                                                        OMB requires offices of inspectors general to exam­
                                                                                        ine the processes agencies use to conduct these as­
                                                                                        sessments as part of their reporting under the Federal
                                                                                        Information Security Management Act. We evaluated
                                                                                        whether the Department’s privacy impact assessment
                                                                                        process adheres to existing policy, guidance, and stan­
                                                                                        dards. We also evaluated the Department’s processes
                                                                                        for ensuring ongoing compliance with web privacy
                                                                                        policies and computer-readability requirements.
                                                                           NOAA
                                                                                        Commerce Policy Needs to Be
       NOAA is using earmarked funds to help restore eelgrass in Narragansett           Updated
       Bay, RI, and the shellfish that depend on this underwater vegetation. Our
       review found that—like this NOAA project—Commerce earmarks sup­
       port mission activities.                                                         In a December 18, 2007, memorandum to all chief
                                                                                        information officers, entitled Data Extract Log and
       pose of this review was to conduct an independent                                Verify Requirement, the Department’s CIO required
       analysis of Commerce’s congressional earmarks for                                operating units to take the following actions by March
       FY 2006. We gave bureau officials the opportunity                                28, 2008:
       to review the report and provide informal comments
       prior to its release. Bureau officials agreed with our                             •		 Review and update all existing privacy impact
       report, and we incorporated their suggestions into the                                 assessments, specifically describing how the
       report. (DEN-19021)                                                                    log and verify requirement of OMB M-07-16,
                                                                                              Safeguarding Against and Responding to the
                                                                                              Breach of Personally Identifiable Information,
                                                                                              has been implemented for the system.



                                                                                   36
September 2008—Semiannual Report to Congress	                                                       Department-wide Management



         •	   Develop privacy impact assessments for all da­       Scope of Compliance Check for Web
              tabases containing investigative, law enforce­       Privacy Policy Is Too Limited
              ment, and human resources information even
              if they were previously exempt.                      The Department’s web policy, Privacy of Visitors to
                                                                   DOC Web Sites, requires all Commerce sites to have
       Although the stated purpose of the memorandum was           computer-readable privacy policy statements that
       to document the implementation of OMB’s data ex­            describe in plain language how the site collects and
       tract log and verify requirement, it effectively changed    handles personal information; how users can consent
       the privacy impact assessment exemption for legacy          to the policy; how sites that have interactions with
       and operational systems, as well as for systems that        children handle getting parental consent, and other
       contain information only about federal employees, to        issues.
       require that all Commerce systems containing person­
       ally identifiable information be assessed.                  Each year, operating units must certify to the Depart­
                                                                   ment that their sites comply with the Department’s
       We also found the Department had requested that             web policy. Those that do not comply must explain
       privacy impact assessments document whether the             why and set a target date for eliminating the deficien­
       records collected are being retained and, if so, to in­     cy.
       clude the specified retention schedule.
                                                                   Department CIO staff validate reported results
       We recommended the Department update its IT pri­            by evaluating Commerce’s 21 “major” web sites —
       vacy policy to incorporate these new requirements for       which include the Commerce homepage, six NOAA
       privacy impact assessments, and revise its IT Security      sites, and homepages for several other operating units.
       Policy and Minimum Implementation Standards to              However, the Department’s FY 2007 annual compli­
       reference the IT privacy policy as guidance for con­        ance report identified 842 Commerce web sites be­
       ducting assessments.                                        cause so many operating units—like NOAA—have
                                                                   multiple sites. To ensure compliance with its web
       Some Privacy Impact Assessments                             policy requirement, the Department should validate
       Are Incomplete                                              a larger, more representative number of Commerce
                                                                   web sites each year. We also found that the evaluation
       We also found some impact assessments do not ad­            process did not validate the computer readability of
       dress all required elements. We reviewed 20 assess­         the web privacy policies to ensure users can be alerted
       ments and found they generally met the intent of            automatically when posted web site policies do not
       OMB’s guidance. However, 4 did not sufficiently             match their privacy preference setting.
       address elements required by OMB and 14 did not
       include sufficient information for certain elements         Department Response
       required by Department policy—such as the reason
       the assessment was conducted or the law or regula­
                                                                   The Department’s Chief Information Officer con­
       tion authorizing the information be collected and
                                                                   curred with all of our recommendations. (OSE­
       maintained. We recommended the Department clar­
                                                                   19047)
       ify certain sections of its IT privacy policy, consider
       developing additional guidance on the level of detail
       to be provided for each assessment element, and ap­
       prove only those impact assessments that contain all
       required elements.




                                                                  37
Department-wide Management                                                     September 2008—Semiannual Report to Congress



       Commerce Needs to Implement                                Nonfederal Audit Activities
       New Contracting Policies
                                                                  In addition to undergoing OIG-performed audits,
                                                                  certain recipients of Commerce financial assistance
       During this semiannual period, we advised the De­          are periodically examined by state and local govern­
       partment that contracting officers had not been noti­      ment auditors and by independent public accountants.
       fied of their new responsibilities for handling certain    OMB Circular A-133, Audits of States, Local Govern­
       contract-related duties that were formerly performed       ments, and Non-Profit Organizations, sets forth the audit
       by the Small Business Administration (SBA). The new        requirements for most of these audits. For-profit or­
       responsibilities are pursuant to a June 2007 partner­      ganizations that receive Advanced Technology Pro­
       ship agreement on the 8(a) Business Development            gram funds from NIST are audited in accordance
       Program between Commerce and SBA. The 8(a) pro­            with Government Auditing Standards and NIST Pro­
       gram, authorized by the Small Business Act, promotes       gram-Specific Audit Guidelines for ATP Cooperative
       business development by giving preference to selected      Agreements, issued by the Department.
       firms owned by socially and economically disadvan­
       taged individuals including Alaska Native Corpora­         We examined 193 audit reports during this semian­
       tions. One such preference, for example, makes it          nual period to determine whether they contained any
       easier to award some sole-source contracts to these        audit findings related to Department programs. For
       companies.                                                 97 of these reports, the Department acts as oversight
                                                                  agency and monitors the audited entity’s compliance
       We also found the Department had not implemented           with OMB Circular A-133 or NIST’s program-specific
       OMB-mandated certification programs for program            reporting requirements. The other 96 reports are from
       and project managers and for contracting officer tech­     entities for which other federal agencies have oversight
       nical representatives. The Department’s existing pro­      responsibility. We identified 13 with findings related to
       gram and project managers should have been certified       the Department.
       by April 25, 2008. Certification for technical repre­
       sentatives was required beginning in May. (Commerce
       had established a certification program for technical                                      ATP-
       representatives in 2004, but it did not meet OMB’s                           OMB
                                                                     Report                     Program-
       new requirements.)                                                           A-133                        Total
                                                                    Category                    Specifics
                                                                                    Audits
                                                                                                 Audits
       Commerce released draft certification policies in late      Pending
       May 2008, which were finalized in late June. Staff in       (April 1,           25            5             30
       the Office of Acquisition Management told us they           2008)
       were actively working to implement the new policies.
                                                                   Received           164            59           223
       We recommended the Department immediately in­
       form contracting officers of their new oversight re­        Examined           147            46           193
       sponsibilities for 8(a) contracts and promptly begin        Pending
       implementing training and certification programs for        (September          42            18            60
       procurement professionals to meet OMB require­              30, 2008)
       ments. (IPE-19045)




                                                             38
September 2008—Semiannual Report to Congress                                                      Department-wide Management



       The following table shows a breakdown by bureau of        We identified a total of $3,243,336 in federal ques­
       approximately $716 million in Commerce funds au­          tioned costs and $203,292 in funds to be put to better
       dited.                                                    use. In most reports the subject programs were not
                                                                 considered major programs; thus the audits involved
                   Bureau                          Funds         limited transaction and compliance testing against
                                                                 laws, regulations, and grant terms and conditions. The
        EDA                                    $ 183,297,299     13 reports with Commerce findings are listed in Ap­
                                                                 pendix B-1. (Regional Offices of Audits)
        ITA                                           303,908

        NIST*                                     70,913,300

        NOAA                                       77,271,369

        NTIA                                         752,684

        Multiagency                              383,028,411

                  Total                        $ 715,566,971
       * Includes $67,178,707 in ATP program-specific audits.




                                                                39
Photo Courtesy Commerce Photographic Service


US flag draped outside Commerce headquarters.
OFFICE OF INSPECTOR GENERAL
	

T       he mission of the Office of Inspector General is to promote economy, efficiency, and effectiveness
        and detect and prevent waste, fraud, abuse, and mismanagement in the programs and operations of
        the U.S. Department of Commerce. Through its audits, inspections, performance evaluations, and
investigations, OIG proposes innovative ideas and constructive solutions that lead to positive changes for the
Department. By providing timely, useful, and reliable information and advice to departmental officials, the
administration, and Congress, OIG’s work helps improve Commerce management and operations as well as its
delivery of services to the public.



Office of Investigations                                   ing activities to determine how the federal funds were
                                                           being used. The findings of this analysis provided key
                                                           evidence in the trial.
Former Research Scientist Convicted
of ATP Grant Fraud                                         The scientist faces a maximum sentence of 10 years in
                                                           prison and a maximum fine of $250,000 or twice the
As detailed in our September 2007 Semiannual Report        gross pecuniary loss or gain derived from the offense.
(page 50), in June 2007, the recipient of a $2 million     Sentencing is scheduled for October 2008. (Atlanta
NIST Advanced Technology Program award was in­             Field Office of Investigations and Atlanta Regional Office of
dicted for program fraud after an OIG investigation        Audits)
found that hundreds of thousands of dollars from the
grant had been diverted to the defendant’s personal        Workers’ Compensation Investigation
use. On June 12, 2008, the scientist was convicted in      Leads to Recovery of Benefits
Federal District Court for the Southern District of
New York of intentionally misapplying approximate­         On June 16, 2008, a former employee of the Minor­
ly $500,000 of the grant funds to pay for numerous         ity Business Development Agency was ordered to re­
personal expenses, including rent, home renovations,       pay more than $180,000 she had received in disability
cleaning services for his condominium, restaurant          benefits. An OIG investigation revealed that she had
meals, and miscellaneous household items.                  failed to report outside earnings on annual certifica­
                                                           tions filed over a 6-year period while simultaneously
This conviction was the result of a collaborative ef­      receiving the federal disability payments.
fort between OIG’s Atlanta Regional Office of Audits
and the Office of Investigations that began in 2003,       The individual had been on disability since June 2002
when audits of the recipient identified overstated         following a claim that she had sustained on-the-job in­
project expenses and inappropriate costs of $547,425       juries in a fall while traveling on government business.
charged against the grant. The auditors and investiga­     Her monthly benefits were approximately $3,500. The
tors worked together to analyze the recipient’s bank­      OIG investigation found that the individual had failed


                                                      41
Office of Inspector General                                                       September 2008—Semiannual Report to Congress



                                                                       purchases to a credit card she had falsely opened in
                                                                       the name of the NWS. An OIG investigation found
                                                                       that in 2006, the employee opened the account online
                                                                       and over a 4-week period purchased DVD players, an
                                                                       MP3 player, two laptop computers, and other items
                                                                       totaling $4,423.92. NWS discovered the theft after
                                                                       the employee defaulted on payments and a collections
                                                                       agency contacted NWS management. The employee
                                                                       was sentenced to 5 years probation and ordered to
                                                                       pay restitution of $4,006.05 (the current account bal­
                                                                       ance) and complete 120 hours of community service.
                                                                       (Denver Resident Office)

                                                                       ITA Intern Sentenced for Credit Card
                                                                       Theft

                                                                       As reported in our March 2008 Semiannual Report
                                                                       (page 25), a former intern of the International Trade
                                                                       Administration was convicted of felony credit card
                                                                       fraud in Fairfax County, Virginia, Circuit Court, af­
                                                                       ter a joint OIG/Fairfax County Police investigation
                                                                       discovered the intern had used his position to obtain
                                                                       government credit card information on various high-
         to report rental income she was concurrently receiv­          ranking Commerce officials including the Secretary of
         ing from September 2003 through February 2008 as              Commerce. As part of his official duties, the intern
         owner and landlord of a property investment and               prepared clearances for Commerce trade missions
         management company. (Atlanta Field Office)                    and had access to account numbers and expiration
                                                                       dates for government travel credit cards, as well as full
         NOAA Grantee Indicted, Pleads                                 names, dates and places of birth, and passport infor­
         Guilty to Theft of Federal Funds                              mation. The intern used the credit card information
                                                                       to purchase thousands of dollars worth of tickets via
         On September 24, 2008, a NOAA grantee pled guilty             an Internet travel site. He was sentenced on July 18,
         to one count of theft following his indictment by             2008 to 2 years in prison, 2 years probation, and or­
         a Federal Grand Jury in the District of Hawaii. An            dered to pay more than $52,000 in restitution. (Silver
         OIG investigation revealed that the grantee had spent         Spring Resident Office)
         $60,000 of the $109,886 award on drugs, clothing, a
         Rolex watch, and other items, as well as on hotel ac­         Former NIST Employee Pleads Guilty,
         commodations. The NOAA grant was intended to                  Forfeits Assets in Major Theft Scheme
         train 40 native Hawaiian people in fishing techniques.
         Sentencing is scheduled for January 2009. (Atlanta            On August 8, 2008, a former NIST engineering tech­
         Field Office)                                                 nician and coordinator of the agency’s Charpy impact
                                                                       testing program, pled guilty in U.S. District Court
         NWS Employee Pleads Guilty to Cred-                           for the District of Colorado to one count of theft
         it Card Theft                                                 of government property and one count of asset for­
                                                                       feiture related to his work with the Charpy program.
         On September 12, 2008, a National Weather Service             This program evaluates the integrity of industrial ma­
         (NWS) employee pled guilty to one count of theft of           chines used to test the strength of structural steel for
         property for charging more than $4,400 in personal            construction.



                                                                  42
September 2008—Semiannual Report to Congress                                                              Office of Inspector General



       An OIG investigation revealed the individual—while           Customs Enforcement, Postal Inspection Service in­
       coordinator of the program—had stolen 900 pounds             vestigation of an international telemarketing fraud
       of government-owned steel test specimens valued in           scheme detailed in our September 2007 and March
       excess of $500,000 and removed a copy of the pro­            2008 Semiannual Reports continued to produce con­
       gram’s customer database, which contained propri­            victions and orders for significant restitution and jail
       etary information. He diverted the stolen property to        time during this reporting period.
       a company he had formed for the purpose of selling
       steel test specimens. For a year, while still employed at    The scheme was perpetrated by callers identifying
       NIST, he operated the business and sold specimens            themselves as employees of the Commerce Depart­
       identical to those produced by NIST. He retired from         ment and other federal agencies, who told victims they
       the agency in 2003 and continued operating the busi­         had won huge cash prizes in a national lottery. They
       ness until March 2006, when OIG investigators ex­            asked “winners” to pay insurance and customs fees
       ecuted a search warrant at his residence, recovering         and to wire funds to guarantee prize delivery. Inves­
       some of the stolen property and other evidence in­           tigators have so far identified transfers of more than
       cluding financial records and computer files.                $30 million from U.S. citizens to Costa Rica, where
                                                                    the scheme was based, but the worldwide total could
       Forensic analysis of the financial and computer data         top $1 billion.
       revealed the defendant had realized economic benefits
       of between $400,000 and $1 million from the stolen           During this semiannual period, 14 defendants were
       property. He was ordered to forfeit all assets derived       sentenced and four others convicted on conspiracy
       from or traceable to the proceeds generated from the         and wire fraud charges. They all face prison terms
       stolen steel. The approximate value of the property          ranging from 3 to 50 years. In addition one more indi­
       to be forfeited is between $900,000 and $1,000,000.          vidual was arrested and two indicted. Total restitution
       Sentencing is scheduled for December 2008. (Denver           ordered thus far exceeds $100 million.
       Resident Office)
                                                                    Over the past 5 years, this investigation has netted
       Commerce Employee Arrested for                               nearly 40 arrests and 30 convictions of Americans
       Metrochek Fraud                                              and Canadians involved in plots to defraud U.S. citi­
                                                                    zens. The investigation is an integral part of the De­
       OIG special agents arrested an Office of the Secre­          partment of Justice’s Operation Global Con, a mas­
       tary employee for first-degree theft after a joint inves­    sive international fraud investigation involving nearly
       tigation with Washington, D.C., Metropolitan Police          3 million victims. (Atlanta Field Office)
       disclosed that the employee received $1,950 in transit
       subsidy benefits while assigned a parking space at the
       Commerce headquarters building, and gave the ben­            Other Activities
       efits to a relative. Between October 2004 and March
       2007, the employee certified at quarterly benefits
       distributions that she had not been issued a federal         The Inspector General Testifies
       parking permit and would not transfer the benefits           on Reauthorization of National
       to anyone else. A hearing in Superior Court of the
                                                                    Marine Sanctuaries Act and
       District of Columbia is scheduled for October 2008.
       (Washington Field Office)                                    Economic Development Admin-
                                                                    istration
       Convictions, Restitution, and Jail
       Terms Mount in Massive Telemarket-                           National Marine Sanctuaries Act
       ing Fraud Case
                                                                    On June 18, 2008, the Inspector General testified be­
       An ongoing joint Commerce OIG, Immigration and               fore the House Subcommittee on Fisheries, Wildlife
                                                                    and Oceans regarding OIG’s oversight of the Nation­


                                                                   43
Office of Inspector General                                                                         September 2008—Semiannual Report to Congress




                                                                                                                                                      NOAA
         A Navy diver examines the bow of the Civil War ironclad USS Monitor. The Monitor was designated the nation’s first national marine sanctuary in 1975.


         al Marine Sanctuary Program as Congress deliberated                          tion is whether the program is ready for expansion.
         reauthorizing the legislation that created the sanctuary                     The IG stated that NOAA needs to engage in a trans­
         system. The last reauthorization was in 2000.                                parent process to develop a list of potential sites for
                                                                                      future designation and determine the factors, criteria,
         Mr. Zinser described the sanctuary program as ef­                            and resource needs for adding sanctuaries. He gave
         fectively protecting marine resources in the 13 ma­                          the subcommittee three recommendations for consid­
         rine sanctuaries and one marine national monument.                           eration in reauthorizing the act:
         He told the subcommittee that a 2008 OIG evalua­
         tion found the program is meeting objectives despite                            1.	 Giving the Secretary of Commerce the flexibil­
         major challenges, which include (1) managing under­                                 ity to establish management plan time frame
         water areas that are far-reaching and geographically                                requirements to reflect variations in the com­
         dispersed—encompassing more than 158,000 square                                     plexity and circumstances of the sanctuaries,
         miles of ocean and Great Lakes marine habitats; and                                 instead of the 5-year time frame that all sites
         (2) balancing the protection and conservation of re­                                must currently meet, regardless of their size.
         sources with vital commercial interests.                                        2.	 Giving the Secretary the same authority for
                                                                                             managing marine monuments as he now has
         In addition, the Inspector General noted, assessments                               for managing the sanctuaries, such as assessing
         by OMB and the National Academy of Public Ad­                                       civil penalties for violations, recovering damag­
         ministration found the program to be well managed                                   es for injuries to sanctuary resources, and creat­
         and effective.                                                                      ing community-based advisory councils.
         Mr. 	Zinser added that many stakeholders view the                               3.	 Establishing a separate title within the act that
         sanctuary program favorably, and would like to see it                               specifies protection of maritime heritage re­
         expand. But a threshold question for the reauthoriza­                               sources to strengthen the act’s current empha­



                                                                                 44
September 2008—Semiannual Report to Congress                                                                 Office of Inspector General



             sis on preserving maritime historic and cultural         or more.)
             resources.
                                                                      Mr. Zinser detailed the report’s recommendations,
       Beyond reauthorization, Mr. Zinser briefly mentioned           primarily that EDA develop a comprehensive strat­
       the need for stronger enforcement of sanctuary reg­            egy and action plan that has specific measurable goals
       ulations and noted that among other things, NOAA               and milestones built on strong oversight from the
       should finalize a national plan for sanctuary enforce­         top down. The inspector general stated that EDA re­
       ment; and consider making greater use of summary               sponded with a 30-point action plan and has made
       settlement schedules, which set fixed fine amounts for         good progress in meeting its milestones.
       misdemeanors and allow both federal and state en­
       forcement officers to issue tickets on the spot. (View         He stressed, however, that the most significant out­
       the complete testimony at www.oig.doc.gov.)                    standing action item was development of a central
                                                                      automated database that provides current, reliable in­
       Economic Development Administra-                               formation on the entire revolving loan portfolio. At
       tion Reauthorization                                           the time of his testimony, the database was slated for
                                                                      implementation by the spring of 2009.
       On September 9, Mr. Zinser testified before the Sen­
       ate Subcommittee on Transportation and Infrastruc­             Finally, Mr. Zinser noted that OIG’s criminal investi­
       ture on the 2008 reauthorization of Commerce’s Eco­            gations and audits of public works grants underscore
       nomic Development Administration.                              the need for closer EDA scrutiny. Though OIG’s
                                                                      oversight of these activities has been less extensive,
       Mr. Zinser described EDA’s grants programs and                 public works audits have questioned significant costs
       funding, which totaled approximately $250 million              and identified millions in funds to be put to better
       in FY 2007, and OIG’s related oversight of the Re­             use. OIG investigations have uncovered instances in
       volving Loan Fund program. He noted that since FY              which grantees diverted funds to enrich themselves
       2000, OIG has audited 50 individual revolving loan             and as a result received prison terms and were ordered
       funds that identified a series of common problems.             to pay fines and restitution. (View the complete testimony
       OIG issued a capping report last year on EDA’s over­           at www.oig.doc.gov.)
       all management of the program. The report looked
       at what actions EDA had taken to address the prob­
       lems raised in the audit reports over the years and            Assistant Inspector General for
       found that EDA had not made sufficient progress in             Audit and Evaluation Partici-
       strengthening management of the revolving loan fund
       program:                                                       pates in Congressional Cyber
                                                                      Security Forum
       EDA did not have a useful central database contain­
       ing current, accurate information on revolving loan            On September 29, Judy Gordon, assistant inspector
       fund balances or an adequate tracking and oversight            general for audit and evaluation, joined leaders and IT
       system.                                                        security authorities from government, business, and
                                                                      education for the first of three forums on cyber se­
       Grant recipients had too much cash on hand; they               curity, hosted by the Senate Homeland Security and
       were not meeting EDA requirements for keeping the              Governmental Affairs Committee and the nonprofit
       bulk of funds out in loans.                                    Institute for Information Infrastructure Protection.

       Recipients were not filing financial reports within re­        Challenges to securing computer systems and infor­
       quired time frames and EDA was not effectively us­             mation grow more complex as our options for access­
       ing single audit reports to manage fund assets. (Single        ing them—via cell phones, MP3 players, and a host of
       audit reports are required by law for revolving loan           other portable wireless technologies—multiply. The
       funds with annual federal expenditures of $500,000             purpose of the forums is to foster greater IT security


                                                                 45
Office of Inspector General                                                        September 2008—Semiannual Report to Congress



         research and development that will help public and             The remaining sessions will bring together other
         private organization keep pace with evolving IT se­            groups of experts to address effective IT security
         curity challenges, and ensure critical networks and the        technologies and the economic trade-offs organiza­
         data they carry are safeguarded.                               tions make to secure their systems. At the conclusion
                                                                        of the sessions, the institute will deliver a report to
         Participants at the first forum explored IT security           the Senate subcommittee that details key findings
         from the user’s perspective: what environments, tools,         and provides a possible roadmap for anticipating and
         and motivations promote safe and secure online be­             promptly mitigating emerging security challenges.
         havior among an organization’s employees and the
         general public? Discussions addressed, among other             The Institute for Information Infrastructure Protec­
         things, psychological and cognitive factors that pre­          tion is a national consortium of universities, labo­
         vent users from accurately assessing risk, the role of         ratories, and nonprofit organizations dedicated to
         organizational culture in preventing misuse of infor­          strengthening the U.S. cyber infrastructure.
         mation technology, and state and local law enforce­
         ment needs for combating electronic crime.




                                                                   46
September 2008—Semiannual Report to Congress	                                                       Office of Inspector General



       TABLES AND STATISTICS
       Statistical Overview
       TABLES                                                                                                    PAGE
       1. Investigative Statistical Highlights for this Period                                                      47
       2. Audit Resolution Follow-Up	                                                                               48
       3. Audit and Inspection Statistical Highlights for this Period	                                              48
       4. Audits with Questioned Costs	                                                                             48
       5. Audits with Recommendations that Funds Be Put to Better Use	                                              49

       APPENDIXES

       A. Report Types this Period 	                                                                                50
         A-1. Performance Audits                                                                                    50
         A-2. Inspections and Evaluations                                                                           51
       B. Processed Audit Reports	                                                                                  52
         B-1. Processed Reports with Audit Findings                                                                 52


       Table 1. Investigative Statistical Highlights for this Period
        Criminal Investigative Activities
        Arrests                                                                                                     3
        Indictments and informations                                                                                6
        Convictions                                                                                                 8
        Personnel actions                                                                                           1
        Fines, restitutions, judgments, and other civil and administrative recoveries                          $94,408,255
        Allegations Processed
        Accepted for investigation                                                                                  52
        Referred to operating units                                                                                 33
        Evaluated but not accepted for investigation or referral                                                    45
        Total                                                                                                      130




       Audit Resolution and Follow-Up
       The Inspector General Act Amendments of 1988 re­                  Department Administrative Order 213-5, Audit Reso-
       quire us to present in this report those audits issued            lution and Follow-up, provides procedures for manage­
       before the beginning of the reporting period (April 1,            ment to request a modification to an approved audit
       2008) for which no management decision had been                   action plan or for a financial assistance recipient to
       made by the end of the period (September 30, 2008).               appeal an audit resolution determination. The follow­
       Six audit reports remain unresolved for this reporting            ing table summarizes modification and appeal activity
       period (see page 53).                                             during the reporting period.




                                                                    47
Office of Inspector General                                                                                 September 2008—Semiannual Report to Congress



        Table 2. Audit Resolution Follow-Up
         Report Category                                                       Modifications                                            Appeals
         Actions pending (April 1, 2008)                                             0                                                    6
         Submissions                                                                 1                                                    3
         Decisions                                                                   0                                                    6
         Actions pending (September 30, 2008)                                        1                                                    3



        Table 3. Audit and Inspection Statistical Highlights for this Period

         Questioned Costs                                                                                                                 $3,243,336*
         Value of audit recommendations that funds be put to better use                                                                     203,292
         Value of audit recommendations agreed to by management                                                                             804,369
        *This number includes costs questioned by state and local government auditors or independent public accountants.



        Table 4. Audits with Questioned Costs
                                                                                                                           Questioned Unsupported
         Report Category                                                                                Number
                                                                                                                             Costs       Costs
                 Reports for which no management decision had been
                                                                                                             21            $23,629,793             $4,541,940
                 made by the beginning of the reporting period

                 Reports issued during the reporting period                                                   9             3,243,336                106,026

         Total reports (A+B) requiring a management decision during
                                                                                                             30             26,873,129              4,647,966
         the period

                 Reports for which a management decision was made
                                                                                                             15             3,845,197                624,028
                 during the reporting period2

                 i. Value of disallowed costs                                                                —                753,605                181,935


                 ii. Value of costs not disallowed                                                           —              3,091,592                442,093

                 Reports for which no management decision had been
            .                                                                                                15             23,027,932              4,023,938
                 made by the end of the reporting period
        NOTES:
        1
          One audit report included in this table is also included among reports with recommendations that funds be but to better use (see table 5). However, the dol-
        lar amounts do not overlap. 

        2
          In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.





                                                                                     48
September 2008—Semiannual Report to Congress                                                                                   Office of Inspector General



       Table 5. Audits with Recommendations that Funds Be Put to Better Use

        Report Category                                                                                                    Number                   Value

               Reports for which no management decision had been made by the
                                                                                                                                 1                $104,711
               beginning of the reporting period

               Reports issued during the reporting period                                                                        3                 203,292


        Total reports (A+B) requiring a management decision during the period1                                                   4                 308,003

               Reports for which a management decision was made during the report­
                                                                                                                                 2                 155,475
               ing period2

               i. Value of recommendations agreed to by management                                                              —                   50,764


               ii. Value of recommendations not agreed to by management                                                         —                  104,711

               Reports for which no management decision had been made by the end
                                                                                                                                 2                 152,528
               of the reporting period
       NOTES:
       1
         One audit report included in this table is also included among reports with questioned costs (see table 4). However, the dollar amounts do not overlap.
       2
         In Category C, lines i and ii do not always equal the total line C because resolution may result in values greater than the original recommendations.




       Definitions of Terms Used in the
       Tables
       Questioned cost: a cost questioned by OIG because                                 action to implement and complete the recommen­
       of (1) an alleged violation of a provision of a law,                              dation, including (1) reductions in outlays; (2) deob­
       regulation, contract, grant, cooperative agreement,                               ligation of funds from programs or operations; (3)
       or other agreement or document governing the ex­                                  withdrawal of interest subsidy costs on loans or loan
       penditure of funds; (2) a finding that, at the time of                            guarantees, insurance, or bonds; (4) costs not incurred
       the audit, such cost is not supported by adequate                                 by implementing recommended improvements related
       documentation; or (3) a finding that an expenditure                               to Commerce, a contractor, or a grantee; (5) avoidance
       of funds for the intended purpose is unnecessary or                               of unnecessary expenditures identified in preaward
       unreasonable.                                                                     reviews of contracts or grant agreements; or (6) any
                                                                                         other savings specifically identified.
       Unsupported cost: a cost that, at the time of the
       audit, is not supported by adequate documentation.                                Management decision: management’s evaluation
       Questioned costs include unsupported costs.                                       of the findings and recommendations included in the
                                                                                         audit report and the issuance of a final decision by
       Recommendation that funds be put to better use:                                   management concerning its response.
       an OIG recommendation that funds could be used
       more efficiently if Commerce management took



                                                                                    49
Office of Inspector General                                           September 2008—Semiannual Report to Congress



        Appendix A. Report Types this Period
         Type                                            Number of Reports         Appendix Number
         Performance audits                                      1                         A-1
         Inspections and systems evaluations                     15                        A-2
         Total                                                   16


        Appendix A-1. Performance Audits

                                                                                        Funds to Be Put
         Report Title                                     Report Number Date Issued
                                                                                         to Better Use
         Office of the Secretary
         Review of Fiscal Year 2006 Congressional Ear­
                                                              DEN-19021      05/30/08            —
         marks




                                                         50
September 2008—Semiannual Report to Congress                                     Office of Inspector General



       Appendix A-2. Inspections and Evaluations

        Bureau of Economic Analysis

        FY 2008 FISMA Assessment of BEA Estimation
                                                                OSE-19001   09/22/08            —
        Information Technology System (BEA-015)

        Census Bureau

        OIG Reviews Through the Decade Identify Significant
                                                                OIG-19217   06/25/08            —
        Problems in Key Operations
        Census Should Further Refine Its Cost Estimate for
                                                                OIG-10958   08/08/08            —
        Fingerprinting Temporary Staff
        FY 2008 FISMA Assessment of Wireless Data Com­
                                                                OSE-19163   09/29/08
        munications General Support System (CEN28)
        FY 2008 FISMA Assessment of the Field Data Col­
                                                                OSE-19164   09/29/08            —
        lection Automation System (CEN22)
        National Oceanic and Atmospheric Administration

        The National Data Buoy Center Should Improve Data
                                                                IPE-18585   05/09/08            —
        Availability and Contracting Practices
        NOAA’s Management of the Joint Enforcement
                                                                IPE-19050   09/30/08            —
        Agreement Program Needs to Be Strengthened
        FY 2008 FISMA Assessment of NWS Telecommuni­
                                                                OSE-19000   09/22/08            —
        cation Gateway (NOAA8871)
        FY 2008 FISMA Assessment of Science and Technol­
                                                                OSE-19165   09/30/08            —
        ogy System (NOAA4020)
        FY 2008 FISMA Assessment of National Weather
        Service International Satellite Communications System   OSE-19166   09/30/08            —
        (NOAA8209)
        FY 2008 FISMA Assessment of Satellite Environmen­
                                                                OSE-19167   09/30/08            —
        tal Processing System (NOAA5035)

        United States Patent and Trademark Office

        The Overseas Intellectual Property Rights Attaché
        Program Is Generally Working Well, but a Compre­        IPE-19044   07/17/08            —
        hensive Operating Plan Is Needed
        FY 2008 FISMA Assessment of Landon IP Informa­
                                                                OSE-19367   09/30/08            —
        tion System (PTOC-019-00)
        FY 2008 FISMA Assessment of Enterprise Remote
                                                                OSE-19368   09/30/08            —
        Access System (PTOI-011-00)

        Office of the Secretary
        The Department’s Privacy Impact Assessment Process
        Is Generally Implemented Well, But Some Improve­        OSE-19047   09/24/08            —
        ments Are Needed



                                                          51
Office of Inspector General                                                      September 2008—Semiannual Report to Congress



        Appendix B. Processed Audit Reports
         The Office of Inspector General reviewed and accepted 193 audit reports prepared by independent public
         accountants and local, state, and other federal auditors. The reports processed with questioned costs, rec­
         ommendations that funds be put to better use, and/or nonfinancial recommendations are listed in

         Appendix B-1.
         Agency                                                                                  Audits
         Economic Development Administration                                                         56
         International Trade Administration                                                           2
         National Institute of Standards and Technology*                                             50
         National Oceanic and Atmospheric Administration                                             29
         National Telecommunications and Information Administration                                   2
         Multiagency                                                                                 54
         Total                                                                                       193
        *Includes 46 ATP program-specific audits.

        Appendix B-1 - Processed Reports with Audit Findings
                                                                             Funds to     Federal            Federal
                                                    Report        Date
         Report Title                                                       Be Put to     Amount             Amount
                                                    Number       Issued
                                                                            Better Use   Questioned        Unsupported
         Economic Development Administration
         City of Baltimore Development Cor­         ATL-09999­
                                                                 09/26/08      $—         $ 37,000             $—
         poration, MD                                 8-3244
                                                    ATL-09999­
         City of Union City, CA                                  09/26/08      —          2,172,201            —
                                                      8-3196
                                                    ATL-09999­
         State of Connecticut                                    09/26/08      —           85,468              —
                                                      8-3171
         Southeast Idaho Council of Govern­         ATL-09999­
                                                                 09/30/08     50,764         —                 —
         ments, Inc., ID                              8-3080
         National Institute of Standards and Technology
                                                    ATL-09999­
         Intrexon Corporation, VA                                09/09/08      —           26,681             26,681
                                                      8-3136
                                                    ATL-09999­
         Intrexon Corporation, VA                                09/09/08      —           12,992             12,992
                                                      8-3135
                                                    ATL-09999­
         Umbanet, Inc., NY                                       09/09/08     24,667                           —
                                                      8-3127
                                                    ATL-09999­
         ISCA Technologies, Inc., CA                             09/26/08    127,861                           —
                                                      8-3011
                                                    ATL-09999­
         GE Energy (USA) LLC, DE                                 09/30/08      —           663,832             —
                                                      8-3191
                                                    ATL-09999­
         Innovative Photonic Solutions, NJ                       09/30/08      —           145,670             —
                                                      8-3265




                                                                  52
September 2008—Semiannual Report to Congress                                                   Office of Inspector General



                                                                           Funds to       Federal           Federal
                                                Report         Date
        Report Title                                                      Be Put to       Amount            Amount
                                                Number        Issued
                                                                          Better Use     Questioned       Unsupported
        National Oceanic and Atmospheric Administration
                                               ATL-09999­
        Government of Guam                                   09/26/08          —             33,139              —
                                                 8-3290
                                               ATL-09999­
        State of Washington                                  09/26/08          —                                 —
                                                 8-3174
                                               ATL-09999­
        Alaska Eskimo Whaling Commission                     09/30/08          —             66,353            66,353
                                                 8-3238


       AUDITS UNRESOLVED FOR
       MORE THAN 6 MONTHS
                                                                   NIST
       Census Bureau
                                                                   Computer Aided Surgery Inc., New York. An
       ITS Services, Inc. In March 2005, we reported that          OIG audit of this NIST cooperative agreement (see
       3 of the 32 task orders awarded under an IT services        September 2004 issue, page 35, and March 2005 is­
       contract were audited to determine whether the costs        sue, page 33—ATL-16095) questioned costs totaling
       billed by the firm were reasonable, allowable, and allo­    $547,426 in inappropriately charged rent, utilities, and
       cable under contract terms and conditions and federal       certain salary, fringe benefit, and other expenses be­
       regulations. We found that the firm had failed to com­      cause these costs were unallowable, in excess of bud­
       ply with numerous contract and federal requirements,        getary limits, or incorrectly categorized. This audit led
       and questioned more than $8.5 million in direct labor       to a criminal investigation, which resulted in a con­
       and reimbursable costs.                                     viction (see page 41). Audit resolution is suspended,
       Computer & High Tech Management, Inc. We re­                pending sentencing in October 2008.
       ported in our September 2005 Semiannual Report (page
       14) the results of audits of 2 of the 21 task orders
       for another firm providing IT services to Census. We
       sought to determine whether the firm had complied
       with contract terms and conditions and federal regu­
       lations and had billed Census for work performed in
       accordance with specifications of the task order. We
       found that the firm failed to comply with numerous
       contract and federal requirements, which caused us to
       question more than $10.7 million in direct labor and
       other reimbursable costs.

       We have suspended audit resolution on both of these
       contract audits pursuant to an agreement with Cen­
       sus.




                                                              53
Office of Inspector General                                                     September 2008—Semiannual Report to Congress



        REPORTING REQUIREMENTS
        The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports.
        The requirements are listed below and indexed to the applicable pages of this report.


        Section                                                                                            Page

        4(a)(2)                Review of Legislation and Regulations                                        54-55

        5(a)(1)                Significant Problems, Abuses, and Deficiencies                               13-43

        5(a)(2)                Significant Recommendations for Corrective Action                            13-43

        5(a)(3)                Prior Significant Recommendations Unimplemented                               54

        5(a)4                  Matters Referred to Prosecutive Authorities                                   47

        5(a)(5) and 6(b)(2)    Information or Assistance Refused                                             55

        5(a)(6)                Listing of Audit Reports                                                     50-53

        5(a)(7)                Summary of Significant Reports                                               13-39

        5(a)(8)                Audit Reports—Questioned Costs                                                48

        5(a)(9)                Audit Reports—Funds to Be Put to Better Use                                   49

        5(a)(10)               Prior Audit Reports Unresolved                                                55
        5(a)(11)               Significant Revised Management Decisions                                      55

        5(a)(12)               Significant Management Decisions with Which OIG Disagreed                     55


        Section 4(a)(2): Review of Legislation                       Section 5(a)(3): Prior Significant
        and Regulations                                              Recommendations Unimplemented
        This section requires the inspector general of each          This section requires identification of each significant
        agency to review existing and proposed legislation           recommendation described in previous semiannual
        and regulations relating to that agency’s programs and       reports for which corrective action has not been com­
        operations. Based on this review, the inspector general      pleted. Section 5(b) requires that the Secretary trans­
        is required to make recommendations in the semian­           mit to Congress statistical tables showing the number
        nual report concerning the impact of such legislation        and value of audit reports for which no final action
        or regulations on the economy and efficiency of the          has been taken, plus an explanation of the reasons
        management of programs and operations adminis­               why recommended action has not occurred, except
        tered or financed by the agency or on the prevention         when the management decision was made within the
        and detection of fraud and abuse in those programs           preceding year.
        and operations. Comments concerning legislative and
        regulatory initiatives affecting Commerce programs           To include a list of all significant unimplemented rec­
        are discussed, as appropriate, in relevant sections of       ommendations in this report would be duplicative.
        the report.




                                                                54
September 2008—Semiannual Report to Congress                                                  Office of Inspector General



       Information on the status of any audit recommen­           Section 5(a)(11): Significant
       dations can be obtained through OIG’s Office of            Revised Management Decisions
       Audits.
                                                                  This section requires an explanation of the reasons
                                                                  for any significant revision to a management decision
       Sections 5(a)(5) and 6(b)(2):
                                                                  made during the reporting period. Department Ad­
       Information or Assistance Refused                          ministrative Order 213-5, Audit Resolution and Follow-up,
       These sections require a summary of each report to         provides procedures for revising a management deci­
       the Secretary when access, information, or assistance      sion. For performance audits, OIG must be consulted
       has been unreasonably refused or not provided. There       and must approve in advance any modification to an
       were no instances during this semiannual period and        audit action plan. For financial assistance audits, OIG
       no reports to the Secretary.                               must concur with any decision that would change the
                                                                  audit resolution proposal in response to an appeal by
                                                                  the recipient. The decisions issued on the six appeals
       Section 5(a)(10): Prior Audit
                                                                  of audit-related debts were finalized with the full par­
       Reports Unresolved                                         ticipation and concurrence of OIG.
       This section requires a summary of each audit report
       issued before the beginning of the reporting period        Section 5(a)(12): Significant
       for which no management decision has been made by          Management Decisions with
       the end of the reporting period (including the date        Which OIG Disagreed
       and title of each such report), an explanation of why a
       decision has not been made, and a statement concern­       This section requires information concerning any
       ing the desired timetable for delivering a decision on     significant management decision with which the in­
       each such report. There were five Census reports and       spector general disagrees. Department Administrative
       one NIST report more than 6 months old.                    Order 213-5 provides procedures for elevating unre­
                                                                  solved audit recommendations to higher levels of De­
                                                                  partment and OIG management, including their con­
                                                                  sideration by an Audit Resolution Council. During this
                                                                  period no audit issues were referred to the council.




                                                             55
